<html>
<title> - [H.A.S.C. No. 111-3]PRIORITIES OF THE DEPARTMENT OF DEFENSE IN THE NEW ADMINISTRATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                          [H.A.S.C. No. 111-3]

   PRIORITIES OF THE DEPARTMENT OF DEFENSE IN THE NEW ADMINISTRATION

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            JANUARY 27, 2009


                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          JOHN M. McHUGH, New York
SOLOMON P. ORTIZ, Texas              ROSCOE G. BARTLETT, Maryland
GENE TAYLOR, Mississippi             HOWARD P. ``BUCK'' McKEON, 
NEIL ABERCROMBIE, Hawaii                 California
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
DAN BOREN, Oklahoma                  K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              DOUG LAMBORN, Colorado
PATRICK J. MURPHY, Pennsylvania      ROB WITTMAN, Virginia
HANK JOHNSON, Georgia                MARY FALLIN, Oklahoma
CAROL SHEA-PORTER, New Hampshire     DUNCAN HUNTER, California
JOE COURTNEY, Connecticut            JOHN C. FLEMING, Louisiana
DAVID LOEBSACK, Iowa                 MIKE COFFMAN, Colorado
KIRSTEN E. GILLIBRAND, New York      THOMAS J. ROONEY, Florida
JOE SESTAK, Pennsylvania
GABRIELLE GIFFORDS, Arizona
NIKI TSONGAS, Massachusetts
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama

                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Caterina Dutto, Staff Assistant












                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Tuesday, January 27, 2009, Priorities of the Department of 
  Defense in the New Administration..............................     1

Appendix:

Tuesday, January 27, 2009........................................    35
                              ----------                              

                       TUESDAY, JANUARY 27, 2009
   PRIORITIES OF THE DEPARTMENT OF DEFENSE IN THE NEW ADMINISTRATION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Committee on Armed Services............................     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Gates, Hon. Robert M., Secretary of Defense......................     5

                                APPENDIX

Prepared Statements:

    Gates, Hon. Robert M.........................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Skelton..................................................    55
    Dr. Snyder...................................................    55

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    64
    Ms. Giffords.................................................    66
    Mr. Heinrich.................................................    68
    Mr. Hunter...................................................    64
    Mr. Langevin.................................................    61
    Mr. LoBiondo.................................................    60
    Mr. Loebsack.................................................    65
    Mr. McKeon...................................................    59
    Mrs. McMorris Rodgers........................................    63
    Mr. Murphy...................................................    64
    Mr. Nye......................................................    67
    Mr. Reyes....................................................    59
    Ms. Shea-Porter..............................................    65
    Ms. Tauscher.................................................    60
    Mr. Wilson...................................................    59
 
   PRIORITIES OF THE DEPARTMENT OF DEFENSE IN THE NEW ADMINISTRATION

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, January 27, 2009.
    The committee met, pursuant to call, at 1:35 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good afternoon and welcome. And before we 
begin our committee hearing, I wish to thank Solomon Ortiz, 
Congressman Ortiz from Texas, for chairing the hearing last 
week. I found myself very much under the weather and unable to 
do it, so we thank him for doing that for us. This afternoon, 
our committee is pleased to welcome the Secretary of Defense, 
Robert Gates, for a hearing entitled The Priorities of the 
Department of Defense in the New Administration. Let me take a 
moment and thank the Secretary directly for his continued 
service to our Nation as he stays on into the new 
Administration. That is remarkable, and we appreciate you doing 
so.
    The Department and the country continue to benefit from 
your leadership, and we appreciate all that you do for us. So 
thank you, Mr. Secretary, for staying on and being the 
Secretary of Defense. About this time of the year, we begin to 
anticipate the arrival of the Administration's budget request 
for the upcoming fiscal year. Shortly thereafter, the committee 
begins to have the posture hearings. And that process is going 
to be delayed this year because the incoming Obama 
Administration naturally wants a chance to review and perhaps 
modify the Department's proposals before they send them over 
here to Congress. So this is a useful opportunity for Secretary 
Gates to share his thoughts on the direction in the Department, 
how it is headed, and what he sees as the significant security 
challenges facing our country.
    I hope, Mr. Secretary, though you will give us some 
indication of when we can expect this year's budget submission, 
because that would be very helpful to us, and legislate 
proposals so that we can begin to plan for the defense 
authorization markup.
    Mr. Secretary, as you know, I have had a long interest and 
been focused on the need for a grand strategy for the United 
States. I think the transition to a new Administration provides 
the opportunity for us to reconsider our strategic framework 
and embark upon a holistic robust process that produces the 
kind of grand strategy this country needs. Your piece, Mr. 
Secretary, in the recent edition of Foreign Affairs is 
brilliant, and I put a copy in front of every member here 
today. It is exactly the sort of thing the Administration must 
consider at this point in time and build into a full national 
security strategy.
    [The information referred to is retained in the committee 
files and can be viewed upon request.]
    The Chairman. President Obama's desire to retain you 
indicates that he values your counsel, and I am glad you will 
be there as he leads this team through the development of a new 
national security strategy in the near future. The stakes are 
too high for us to play the strategy game haphazardly. I would 
like to hear your thoughts on how we might improve this 
process. Let me say a few words about some of the recent 
announcements by President Obama. I have long championed the 
return to focus on the war in Afghanistan and am pleased to 
hear the President embrace this idea so fully in his first 
week. This is a critical moment in Afghanistan for American 
national security interests.
    We need a clear definition there of the end state we are 
trying to achieve in the short-term and the long-term and a 
coordinated strategy that gets us there. More forces and combat 
support capability can make a great difference, particularly in 
the troubled south of that country. But I would like to 
understand more, Mr. Secretary, how the Department intends to 
balance the needs for combat enablers, the aerial vehicles 
(AVs), transfer local security forces, medevac assets and other 
capabilities between Afghanistan and Iraq.
    Our combat forces will not be fully affected, particularly 
in Afghanistan's difficult terrain without enablers such as 
those. In addition, it can't be stated so strongly that we 
won't win in Afghanistan with military force alone. I think you 
point that out. Additional combat brigades in Afghanistan 
cannot be fully effective unless we provide for diplomatic 
development, governance and economic resources with it.
    Mr. Secretary, I would like to hear your view of how we 
proceed in Afghanistan, what the end state is, I repeat that, 
what the end state is, how the Administration's review will 
approach the question about the strategy and the difficulties 
the force encounter in making additional resources available 
for General McKiernan. The Department will face many other 
challenges. The breadth of your written testimony demonstrates 
just how many. You have to come to terms with the wars of today 
and the unforeseen challenges of tomorrow. We need to provide 
the possibility of force-on-force conflicts and simultaneously 
provide for insurgencies and guerrilla warfare. And we must do 
this at a time with great fiscal strain for this Nation. Hard 
choices will be needed.
    As I have said to other senior defense leaders, lately we 
face two problems in getting it all done. One is time and the 
other is money. And I hope you will lay out for this committee 
how the new Administration is thinking about strategy and 
tradeoffs, both in this budget and in the upcoming Quadrennial 
Defense Review. This Congress must understand the capabilities. 
We need to face current and future threats and the risks 
associated with our choices. Finally, let me say a few words 
about President Obama's actions last week to close the 
detention facilities at the U.S. naval station in Guantanamo 
Bay, Cuba, otherwise to chart a drastically different course 
for our country regarding detainee matters.
    In a few strokes of the pen, the President single-handedly 
repaired much of the damage done to our country's international 
reputation because of the controversial detainee policies of 
the previous Administration. I am concerned, however, that 
there are precious few good answers to the complex questions 
that are central to the detainee policy, including how to 
prosecute known terrorists with a full force of the law so 
their convictions stick and justice is served, what to do with 
the other hardcore detainees so that they do not return to the 
battlefield, and where to place them now and in the future.
    I ask you to keep us fully informed as you work through the 
task forces that will recommend answers to these questions. Mr. 
Secretary, we are absolutely pleased you are here and we look 
forward to your thoughts, your comments. But first, my friend 
Mr. McHugh.

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
       YORK, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McHugh. Thank you very much, Mr. Chairman. And let me 
echo your words of appreciation and compliments to our mutual 
good friend Solomon Ortiz for his able handling of the hearing 
in which you were regrettably unable to attend. But let me say, 
Mr. Chairman, this committee is, for the moment, better suited 
by having you back with us, and we are thrilled that you have 
recovered from that.
    Mr. Secretary, welcome. I can't resist saying in spite of 
the facts behind it as I look at your physical condition, tough 
morning in the Senate? For those of you who may not have 
noticed, the Secretary is wearing a sling on his shoulder. He 
was out doing the great work of trying to clear snow which we 
have begun to realize is an important part of operations here 
in the D.C. District, and it underscores the fact that our 
great Secretary, through now two Administrations, takes his 
responsibilities very seriously appearing this morning in the 
Senate and agreeing with generously and graciously to being 
with us here on the House side this afternoon, when perhaps he 
may have other challenges facing him.
    And I could not agree more with the comments of our 
distinguished chairman, Mr. Secretary, when we deeply 
appreciate your leadership the contributions and sacrifices 
both you and your family have made and have agreed to continue 
to make is unparalleled. And I certainly, and I know I speak 
for all my colleagues, look forward to working with you and 
your staff and helping to face the challenges that lie before 
us, both immediate and on the horizons, and continue the 
tradition of bipartisanship consultation, cooperation and 
collaboration that really has been the hallmark of this 
committee.
    So Mr. Secretary, thank you for being here. Just a few 
thoughts. We do have some votes coming up. Let me agree again 
with the Chairman. I am a subscriber to Foreign Affairs 
Magazine. I read very carefully, in fact, I have read twice, 
your, I agree, Mr. Chairman, brilliant article as to the 
challenges that we are looking at with respect to the 
Pentagon's national defense strategy and your interest in 
trying to achieve a balance.
    As we go forward here today, I would say as a kind of 
preface, I agree, we have got to be prepared to meet the full 
spectrum of warfare from conventional combat operations to 
counterinsurgency to space and cyberspace in so doing ensure 
and continue to ensure our military edge. I agree our military 
can't do everything. And I would say that, regrettably in 
recent years, we have asked them to do more than proper, we 
have asked them to take on responsibilities that should rest 
elsewhere, and we have to begin to emphasize that our partner 
nations, as well as partner agencies, need to do their share. 
The piracy off the coast of Somalia is a great example of where 
unilateral U.S. military response simply is both insufficient 
and inappropriate.
    Let me also say while I hope you will comment a bit more 
about this very informative article, that you have the 
opportunity to talk obviously about Iraq and Afghanistan. At 
the onset of this new year, our military forces begin operating 
under a new paradigm in Iraq with the security situation on the 
ground vastly improved, due in large measure because of the 
success of the surge. There is a picture for the way forward. 
And I would suggest as well the new Status of Forces Agreement 
that you had somewhat of a hand in, Mr. Secretary, lays out 
what I believe is a very logical plan for the response for 
reduction of U.S. forces in Iraq.
    But in Afghanistan, I seem to believe that it is a much 
different situation, a much different operating environment. It 
is a poor nation, a nation with a history of continuous 
violence. The insurgency is a web of Taliban, al Qaeda and 
narco-criminals. The enemies tactics are growing in 
sophistication and lethality. And here in Washington, we wait 
for the results of multiple strategic reviews and we focus on 
the pending deployment of additional U.S. forces. And we make 
calls that land on largely deaf ears of our, at least some of 
our North Atlantic Treaty Organization (NATO) allies to do more 
and restrict less. And we are not here to have a hearing on 
Afghanistan, but we need to talk about what the path ahead may 
look like, how the visions between Iraq and Afghanistan may 
differ in what victory in both of those theaters may look like.
    And thirdly, Mr. Secretary, picking up on the comments of 
the distinguished chairman, the President's three Executive 
Orders last week did make a decisive step, did indeed send a 
certain message. But, I would argue, has caused a great deal of 
uncertainty as to the way ahead with respect to how do we 
detain and how do we interrogate and how can we ensure that 
terrorists released or transferred to another country don't 
reappear on the battlefield or in a position to attack 
Americans or our allies.
    Where do we house terrorists that are deemed too dangerous 
to release or transfer to another country? And if the judicial 
procedures that were established under the Military Commissions 
Act are overturned, will we, at the end of the day, have 
sufficient evidence and legal processes in place to continue to 
hold the most dangerous terrorists such as 9/11 mastermind 
Khalid Sheikh Mohammed?
    These are difficult questions. Whether you agree with the 
President's decisions or not, I would hope we could all agree 
we have to understand the ramifications and the path ahead. And 
these are all things that I look forward to your comments on, 
Mr. Secretary, but most importantly, with a final word of 
thanks for your appearance here today.
    Mr. Chairman, I would yield back.
    The Chairman. Thank you, Mr. McHugh. I must announce that 
the Secretary has a hard drop at 5:00 this evening. Secondly, 
we just received word that there are four votes expected at, we 
were told, 1:45. And so Mr. Secretary when the votes come, we 
will do our very best to get back here as soon as we can to 
take up. The five-minute rule means five minutes. And everyone, 
of course, is very familiar with that. So with that, Mr. 
Secretary, the floor is yours and we again appreciate your 
being with us.

    STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE

    Secretary Gates. Thank you, Mr. Chairman, Representative 
McHugh, Members of the Committee. Thank you for an opportunity 
to provide an overview of the challenges facing the Department 
of Defense and some of my priorities for the coming year. In 
doing so, I am very mindful that the new Administration has 
only been in place essentially for a week and newer changing 
policies will likely arise in the coming months.
    Later this spring, I will present President Obama's defense 
budget, and at that time will be better equipped to discuss the 
details of his vision for the Department. Thank you for your 
kind comments here at the outset of the hearing. I assure you 
that none of you are any more surprised to see me back than I 
am. I am humbled by the President's faith in me and deeply 
honored to continue to lead the United States military. And I 
want to thank this committee for your confidence in my 
leadership and your enduring support of our military.
    My submitted testimony covers a range of issues; North 
Korea, Iran and proliferation, Russia and China, wounded 
warrior care, ground force expansion and stress on the force, 
National Guard, nuclear stewardship, defending space and 
cyberspace and wartime procurement. For the next few minutes, 
though, I would like to focus on Afghanistan, Iraq and defense 
acquisition. There is little doubt that our greatest military 
challenge right now is Afghanistan. As you know, the United 
States has focused more on central Asia in recent months. 
President Obama has made it clear that the Afghan theater 
should be our top overseas military priority. There are more 
than 40 nations, hundreds of non-governmental organizations 
(NGOs), universities, development banks, the United Nations, 
the European Union, NATO and more involved in Afghanistan, all 
working to help a nation beset by crushing poverty, a thriving 
drug trade fueling corruption, a ruthless and resilient 
insurgency and violent extremists of many stripes, not the 
least of which is al Qaeda.
    Coordination of these international efforts has been to say 
the least difficult. Based on our past experience in 
Afghanistan and applicable lessons from Iraq, there are 
assessments underway that should provide an integrated way 
forward to achieve our goals. As in Iraq there is no purely 
military solution in Afghanistan. But it is also clear that we 
have not had enough troops to provide a baseline level of 
security in some of the most dangerous areas, a vacuum that 
increasingly has been filled by the Taliban. That is why the 
United States is considering an increase in our military 
presence in conjunction with a dramatic increase in the size of 
the Afghan security forces, and also pressing forward on issues 
like improving civil military coordination and focusing efforts 
more on the district level.
    While this will undoubtedly be a long and difficult fight, 
we can attain what I believe should be among our strategic 
objectives: An Afghan people who do not provide a safe haven 
for al Qaeda; reject the rule of the Taliban; and support the 
legitimate government that they elected in which they have a 
stake. Of course it is impossible to disaggregate Afghanistan 
and Pakistan given the porous border between them. Pakistan is 
a friend and partner and it is necessary for us to stay engaged 
and help wherever we can. I assure you we will all continue to 
watch the situation in Pakistan very closely. As you know, the 
Status of Forces Agreement between the United States and Iraq 
went into effect on January 1st. The agreement calls for U.S. 
combat troops to be out of Iraqi cities by the end of June and 
all troops out of Iraq by the year 2011 at the latest. It 
balances the interests of both countries as we see the 
emergence of a sovereign Iraq in full control of its territory.
    Provincial elections in just a few days are another sign of 
progress. The Status of Forces Agreement (SOFA) marks an 
important step forward in the orderly drawdown of the American 
presence. It is a watershed, a firm indication that American 
and military involvement in Iraq is winding down. Even so, I 
would offer a few words of caution. The violence has remained 
low, there is still the potential for setbacks and there may be 
hard days ahead for our troops. As our military presence 
decreases over time, we should still expect to be involved in 
Iraq on some level for many years to come assuming a sovereign 
Iraq continues to seek our partnership. The stability of Iraq 
remains critical to the future of the Middle East, a region 
that multiple presidents of both political parties have 
considered vital to the national security of the United States.
    As I have focused on the two wars these past two years I 
ended up punting a number of procurement decisions that I 
believe would be more appropriately handled by my successor in 
a new Administration. As luck would have it I am now the 
receiver of those punts and in this game there are no fair 
catches. Chief among institutional challenges facing the 
Department is acquisitions. Broadly speaking, how we acquire 
goods and services and manage the taxpayers money. There are a 
host of issues that have led us to where we are starting with 
long-standing systemic problems. Entrenched attitudes 
throughout the government are particularly pronounced in the 
area of acquisition. A risk-averse culture, a litigious 
process, parochial interests, excessive and changing 
requirements, budget churn and instability and sometimes 
adversarial relationships within the Department of Defense and 
between Defense and other parts of the government.
    At the same time, acquisition priorities have changed from 
Defense Secretary to Defense Secretary, from Administration to 
Administration, and from Congress to Congress, making any sort 
of long-term procurement strategy on which we can accurately 
base costs next to impossible. Add to all of this the 
difficulty in bringing in qualified senior acquisition 
officials. Over the past 8 years, for example, the Department 
of Defense has operated with an average percentage of vacancies 
in the key acquisition positions ranging from 13 percent in the 
Army to 43 percent in the Air Force. Thus the situation we face 
today where a small set of expensive weapons programs has had 
repeated and unacceptable problems with requirements, schedule, 
cost and performance. The list spans the services. Since the 
end of World War II there have been nearly 130 studies on these 
problems to little avail. While there is no silver bullet, I do 
believe we can make headway, and we have already begun to 
address these issues. First I believe that the 2010 budget must 
make hard choices. Any necessary changes should, and I believe 
must, avoid across-the-board adjustments, which inefficiently 
extend all programs.
    We have begun to purchase systems at more efficient rates 
for the production lines. I believe we can combine budget 
stability and order rates that take advantage of economies of 
scale to lower costs. I will pursue greater quantities of 
systems that represent the 75 percent solution instead of 
smaller quantities of 99 percent exquisite systems. While the 
military's operations have become very joint and impressively 
so, budget and procurement decisions remain overwhelmingly 
service centric. To address a given risk, we may have to invest 
more in the future oriented program of one service and less in 
that of another service, particularly when both programs were 
conceived with the same threat in mind. We must freeze 
requirements on programs that contract award and write 
contracts that incentivize proper behavior.
    I believe that many programs that cost more than 
anticipated are built on inadequate initial foundations. I 
believe the Department should seek increased competition, the 
use of prototypes and competitive prototyping and ensure 
technology maturity so that our programs are ready for the next 
phases of development. And finally, we must restore the 
Defense's acquisition team. I look forward to working with the 
Congress to establish a necessary consensus on the need to have 
adequate personnel capacity in all elements of the acquisition 
process.
    This is no small task and will require much work in the 
months ahead, which brings me to a few final thoughts. I spent 
the better part of the last two years focused on the wars we 
are fighting today and making sure that the Pentagon is doing 
everything possible to ensure that America's fighting men and 
women are supported in battle and properly cared for when they 
return home. Efforts to put the bureaucracy on a war footing 
have, in my view, revealed underlying flaws in institutional 
priorities, cultural preferences and reward structures of 
America's defense establishment. A set of institutions largely 
arranged to plan for future wars to prepare for a short war, 
but not to wage a protracted war. The challenge we face is how 
well we can institutionalize the irregular capabilities gained 
and means to support troops in the theater that have been for 
the most part developed ad hoc and funded outside the base 
budget.
    This requires that we close the yawning gap between the way 
the defense establishment supports current operations and the 
way it prepares for future conventional threats. Our wartime 
needs must have an institutional home and enthusiastic 
constituencies in the regular budgeting and procurement 
process. Our procurement and preparation for consecutively 
scenarios must in turn be driven more by the actual 
capabilities of potential adversaries and less by what is 
technologically feasible given unlimited time and resources.
    As I mentioned, President Obama will present his budget 
later this spring. The one thing we have known for many months 
is that the spigot of defense spending that opened on 9/11 is 
closing. With two major campaigns ongoing the economic crisis 
and resulting budget pressures will force hard choices on the 
Department of Defense. But for all the difficulties we face, I 
believe the moment also presents an opportunity. One of those 
rare chances to match virtue to necessity, to critically and 
ruthlessly separate appetites from real requirements. Those 
things that are desirable in a perfect world from those things 
that are truly needed in light of the threats America faces and 
the missions we are likely to undertake in the years ahead.
    We will not be able to do everything, buy everything. And 
while we have spoken at length about these issues, I believe 
now is the time to take action. I promise you that as long as I 
remain in this post, I will focus on creating a united defense 
strategy, a unified defense statute that determines our budget 
priorities. This after all is about more than just dollars. It 
goes to the heart of our national security. I will need help 
from the other stakeholders, from industry and from you, the 
Members of Congress.
    It is one thing to speak broadly about the need for budget 
discipline and acquisition reform, it is quite another to make 
tough choices about specific weapon systems and defense 
priorities based solely on national interests and then to stick 
to those decisions over time. The President and I need your 
help as all of us together do what is best for America as a 
whole in making those decisions. I have no illusions at all 
that this will be solved while I am at the Pentagon. Indeed, 
even if I am somewhat successful on the institutional side, the 
benefits of these changes may not be visible for years. My 
hope, however, is to draw a line and to begin to make systemic 
progress to put the Department on a glide path for future 
success.
    I look forward to working with each of you to gain your 
insight and recommendations along the way. Once more, I thank 
you for all you have done to support the Department of Defense 
and the men and women wearing our Nation's uniform. Thank you, 
Mr. Chairman, I look forward to your questions.
    [The prepared statement of Secretary Gates can be found in 
the Appendix on page 39.]
    The Chairman. Mr. Secretary, thank you very much. We 
appreciate your excellent testimony. And maybe we can squeeze a 
few questions in before we go over to vote for the four 
measures. Let me first ask, in your best judgment, when will 
the budget submission be made to the Congress.
    Secretary Gates. My hope is that we will have a fiscal year 
2009, the remaining fiscal year 2009 supplemental proposal up 
here in a matter of two to three weeks, perhaps a little 
longer. And as best I can understand, we would be looking 
toward the fiscal year 2010 budget coming up somewhere near the 
end of March.
    The Chairman. That is good. Now, along with that is the 
rules admissions requirement report that we had at our recent 
legislation. I hope that will be a thorough review. I know 
sometimes it is very difficult to talk about rules admissions. 
We had a panel that worked on that issue under the able 
leadership of Jim Cooper this last year, and I hope that that 
will accompany it and be a substantial document. One last 
question Mr. McHugh before you can, one last question. What is 
the end state, as you see it, in Afghanistan.
    Secretary Gates. I believe our goals in Afghanistan have to 
be more near-term and more modest. I would define success in 
Afghanistan as a situation in Afghanistan where it is no longer 
a source of terrorist threat or extremist threat to the United 
States or our friends or allies. Much has to be done to create 
that kind of an end state, but I believe that we should be very 
cautious in having very long-term, very idealistic aspirations 
in Afghanistan and rather focus on what we think we actually 
can accomplish within the next three to five years.
    The Chairman. Thank you. Mr. McHugh, would you like to ask 
a question or two.
    Mr. McHugh. Mr. Chairman, given the interest of other 
members to go vote if the Secretary has a few moments extra, 
perhaps it would be better to get members over, allow them to 
vote and then come back, if it is agreeable with you.
    The Chairman. That is certainly agreeable. Mr. Secretary, 
we will take a break and be back as quickly as we can.
    Mr. McHugh. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary.
    The Chairman. Thank you, Mr. Secretary.
    [Recess.]
    The Chairman. Thank you very much for waiting. We did 
finish our four votes, and, Mr. Secretary, we are back.
    The microphone is with our ranking gentleman, John McHugh.
    Mr. McHugh. Thank you very much, Mr. Chairman, and let me 
add to your words of appreciation to the Secretary for being 
with us.
    Mr. Secretary, you talked in your opening comments about 
the situation in Iraq for what I believe you described as the 
potential for setbacks. And I think, I hope, we can all agree 
that is still a very tenuous situation and a very dangerous 
one.
    Outgoing Ambassador Crocker talked about the dangers of 
precipitous withdrawal. In my opening comments, I talked about 
the SOFA, talked about the time frame for redeployments that 
has been embedded in that, and I happen to believe, after 
talking to General Petraeus and other military leaders, that it 
is an achievable objective.
    Just last week our new President met with the military 
leaders and talked about the 16-month time frame for 
withdrawal, and we are looking at an 8-month, roughly, 
differential. What worries me, Mr. Secretary, is that those 
kinds of redeployment decisions may be based on not military 
imperatives, but political imperatives.
    I was hoping today you might fill in the blanks a bit about 
what the directive was to the military leadership as to the 16-
month time frame. Are we asking them to look at it as a 
potential, assessing the downsides of that; or if this was an 
order that said simply, ``I want out in 16 months. How do we do 
it?'' What can you tell us about that in that time frame?
    Secretary Gates. What we are preparing for the President 
are--in response to his request are several options, and 
beginning with a 16-month completion of the current mission and 
transition to an advisory and assistance role. We are 
developing other options as well, and I have tried to do this 
in a way, with the President's agreement, that ensures that he 
hears directly from each of the commanders, each of his senior 
military commanders.
    So he will have spoken directly to General Odierno, he will 
have spoken directly to General McKiernan, to General Petraeus. 
As I think is public, he is meeting at the Pentagon tomorrow 
with the Joint Chiefs of Staff, and he obviously will hear from 
the Chairman and myself.
    He has been firm in saying he wants a responsible 
withdrawal and one that is safe for our troops, and we are 
laying out, with each of the options we will present to him, 
our view, each of the commanders' views, of the risks 
associated with that timeline.
    So I think he has entirely properly asked for a range of 
options, including the 16-month. We will give him that. He has 
asked for more information on some of our assumptions. He has 
asked for more analysis in certain areas, but I think this is a 
very thorough and a very real process. I don't think anybody 
associated with it in the Department of Defense feels like we 
are going through the motions, that a decision has already been 
made. And I think that the President will listen to the 
commanders, and I think we will come out in a good place on 
this.
    Two thousand and nine is a year that is actually fraught 
with both opportunity and risk, and they are the opposite sides 
of the same coin in the respect of really four elections that 
will be held: the provincial elections this fall--in a few 
days, the district and subdistrict elections this summer in 
June, the referendum on the SOFA at the end of July, and then 
the national elections at the end of the year.
    If we make it through those elections, then the prospects, 
I think, for an enduring domestic peace in Iraq are 
substantially enhanced. And we will see how these elections go.
    Clearly, successful provincial elections in which the 
Sunnis participate, having boycotted several years ago, would 
be a big step forward.
    So we will measure the risk as we go along. But these are 
the kinds of issues that we are laying out in front of the 
President.
    Mr. McHugh. Then I can assume that you have a reasonable 
level of confidence that this will be a military, not a 
political-based decision. It is no secret that our new 
President opposed the surge. In fact, he said in his judgment 
it would make matters worse, not better. There is no sin in, 
perhaps, making misjudgments, but I truly worry that we would 
squander the great progress that our men and women in uniform 
have made and the brilliant leadership of people like General 
Petraeus, and I might add also, Mr. Secretary, you. And I would 
just like to hear you say this will be a military-based 
decision.
    Secretary Gates. The President is the Commander in Chief, 
but I will tell you, Mr. McHugh, I am completely confident that 
the President will make a decision based solely on what he 
believes is in the best interest of the United States.
    Mr. McHugh. Thank you very much, Mr. Chairman.
    I am going to ask one more, if I may.
    Last week the President signed three rather controversial 
Executive Orders with respect to detention, with respect to 
interrogation and such, and his new press secretary said--and I 
want to quote--``The President believes that we what did today 
will enhance the security of the American people, that it lives 
up to our values as American people.''
    Mr. Secretary, I have to be very honest. Without debating 
the objectives of those orders--and I think there was a pretty 
widespread agreement that we should do what we can to close 
Guantanamo across the board. Nevertheless, as a 16-year member, 
now 17-year member, of this committee, and as a 4-year member 
of the Intelligence Committee, I am hard pressed to understand 
how uncertainty breeds security. And for whatever one might 
think of the objectives of the President's Executive Orders, it 
seems to me that the unquestionable result for the moment is we 
have uncertainty.
    And I was wondering if you could help us and help me to 
better understand, for example, if we are to pick up a high-
value target out of Pakistan, out of Afghanistan, or any other 
place on the globe tomorrow, we would have a reasonable way by 
which to detain these individuals, by which to interrogate 
these individuals, and what the path is between now and the 
time frame by which the President has said that Guantanamo will 
close.
    We can disagree and debate as to the former 
Administration's policies in these regards, but they were 
policies. They did have a way to detain individuals. They did 
have a process to interrogate them. They did have a process to 
bring them to trial.
    What does the path ahead look like? What if, for example, 
if tomorrow we pick up Osama bin Laden in a cave somewhere in 
the Federally Administered Tribal Areas (FATA) or wherever it 
may be, what does tomorrow bring as a lead-up for a year from 
now in the closing of that facility in Cuba?
    Secretary Gates. I think our folks believe that they have 
the authorities that they need in Afghanistan, in particular, 
and in going after al Qaeda to detain high-value targets. The 
reality is our Special Forces have been detaining al Qaeda and 
other insurgents for some period of time and observing the Army 
Field Manual in their interrogation techniques, and I don't 
think they have felt that they have been inhibited from getting 
the information that they could get out of these detainees.
    With respect to Guantanamo, my view is--I guess I would 
make two points: I think if we did not have a deadline--first 
of all, let me concede your point. There are some very 
difficult decisions ahead with respect to Guantanamo, but I 
believe if we did not have a deadline, we would kick that can 
down the road endlessly. And I think that--my experience in 
making anything work at the Department of Defense is the only 
way I can get anything done is by putting a deadline on it and 
making people understand that the deadline is meaningful.
    And I think the only way we will come to grips with some of 
the tough decisions that have to be made with respect to 
Guantanamo is by having a deadline that then forces the rest of 
us to turn to and figure out solutions to some of these 
problems.
    A number of the detainees at Guantanamo, perhaps 70, are 
people that we are prepared to return to their home countries 
or other countries that would take them and put them through 
some sort of a rehabilitation process. Others will have to be 
sorted through in terms of whether they might be tried in 
Article III courts, whether they might be tried under the 
Uniform Code of Military Justice, or whether they might be 
still tried under the military commissions or something else. 
Those are the issues that I think we have to take on.
    I think one of the toughest issues that we all are going to 
have to face is what about whatever the relatively small number 
is who probably cannot be brought to trial, and yet are quite 
open about saying that if they are released, they will find 
ways to kill Americans. And we are going to have to come to 
grips with that.
    But I think the other side of the coin is that the United 
States is in an ideological struggle with these extremists, and 
I think that the announcement of the decision to close 
Guantanamo has been an important strategic communications 
victory for the United States. And the response of the 
Europeans, their statements to the effect by some of them that 
they would, perhaps, be willing to take some of these 
detainees, the reaction elsewhere in the world, I think, 
creates opportunities for us.
    So I know that having a deadline is a concern to some 
people, but frankly, as I put it to somebody the other day, 
without it, we would just keep kicking that can of worms down 
the road, and I think we need to come to grips with it and deal 
with it.
    Mr. McHugh. So if I may to close, Mr. Chairman.
    Mr. Secretary, with respect to--let us categorize them as 
the hard core, the Khalid Sheikh Mohammed and others, it is 
likely that we will have an alternative road to prosecution 
that will not include bringing the most dangerous of the 
dangerous to our own shores and in a place where we don't 
repeat the, I think, mistakes of after the first World Trade 
Center bombing, trying people in American civil courts that 
divulge the kinds of intelligence information that clearly 
inure to the benefit to those who wish the worst for this 
country; is that a fair statement?
    Secretary Gates. I think that what happens to the hard core 
who cannot be tried is one of the issues that the Executive 
Order lays out needs to be addressed and resolved over the 
course of the next year.
    Mr. McHugh. Let me say I wish you the best in that. And I 
don't make any apologies for the fact that many of us are 
concerned about what that alternative path may take and that I 
would have been far more comfortable with this decision had we 
had those decisions in place before ordering the closure.
    But I appreciate your perspective on it, and, as always, 
Mr. Secretary, thank you so much for your leadership and for 
your willingness to serve. We deeply appreciate that.
    With my gratitude, Mr. Chairman, I will yield back.
    The Chairman. Let me recapitulate very, very quickly.
    There are five categories of detainees in Guantanamo. 
Category number one, those that we are willing to turn loose 
now, and there is a problem in who will accept them, or if they 
went back to their country of origin, they might well meet with 
serious trouble, torture or worse.
    Category two, three, and four would be those categories for 
which they may be tried in a court-martial, military court-
martial; second, in a Federal court in the United States; 
third, before the commissions such as the commission that is 
now in existence.
    The fifth category is the one where you have the hard core, 
those that you know full well will go back and fight Americans 
and our coalition partners. And what do you do with them? You 
don't have evidence in hand to actually try them under the 
first--the previous three trial categories. That is a serious 
problem. I suppose legally they can be held as prisoners of war 
as long as there is an ongoing war, which, of course, in my 
opinion, will be a generational thing or more.
    Am I correct in categorizing those five categories?
    Secretary Gates. I think that is correct, Mr. Chairman.
    The Chairman. Thank you.
    Solomon Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Mr. Secretary, it is nice to see you again and see that you 
are recovering.
    You know, as Chairman of the Readiness Subcommittee, I am 
concerned that Congress has not been able to identify the 
single entity or person in the Department for a whole-picture 
view of how reset equipment leaving Iraq integrates with what 
the combatant commanders will need to carry out continuing 
operations in Afghanistan, while at the same time meeting the 
equipment requirements of a larger Army and Marine Corps.
    I am just wondering what is the Administration doing to 
address this apparent gap within the Department of Defense 
regarding the integration of reset planning and involving 
combatant commander requirements regarding operational 
planning? Maybe you can give the committee a little overview 
for now.
    Secretary Gates. Mr. Ortiz, I think that principally the 
responsibility rests with the respective service secretaries. 
So principally, the Secretary of the Army and also the National 
Guard Bureau and General McKinley. I think that is where the 
greatest bulk of the reset equipment is, in the Army and in the 
National Guard.
    And so I would say the principal responsibility rests with 
the Secretary of the Army.
    Mr. Ortiz. What do you believe the Department of Defense's 
role is or should be in public diplomacy and strategic 
communications?
    I know there has been a change of trying to get involved 
with other countries that for many reasons in the past we never 
engaged, we never talked to. Do you think that is going to be 
changing now?
    Secretary Gates. Well, I think that there are two 
categories geographically that I would refer to. One is where 
we are actively engaged in military activities in combat, such 
as in Iraq and Afghanistan, where strategic communications and 
information operations are an integral part of the military 
operations and in terms of identifying the al Qaeda threat, the 
insurgent threat, what we are trying to accomplish with our 
partners and allies and so on.
    There is the strategic communications aspect also in other 
places where al Qaeda has metastasized, whether it is North 
Africa and other places like that. But it seems to me that on a 
global basis and outside the special operations and combat 
operations arenas, the principal lead in strategic 
communications ought to lie with the Department of State, and 
they ought to be the ones who formulate the principal themes of 
U.S. strategic communications in dealing with the rest of the 
world.
    Mr. Ortiz. And going back to a quote--maybe I should not 
repeat, but somebody from the State Department said that they 
had more band members in the Department of Defense than they 
did in the State Department. Maybe that needs to be 
straightened out. I don't know where that statement came from.
    Secretary Gates. I have heard that a number of times. I may 
have even used it a couple of times. I don't know whether or 
not that is a true statement or not, but I do know one thing: 
If you took all of the Foreign Service officers in the world, 
they would not be enough people to staff one carrier strike 
group.
    Mr. Ortiz. Thank you for your service, Mr. Secretary.
    Secretary Gates. Mr. Chairman, I might just, just for the 
record, correct on your first category of detainees. They would 
not be people that would be turned loose, but rather people who 
would be transferred to other governments and where we would 
have certain expectations in terms of monitoring or 
rehabilitation programs and so on.
    The Chairman. Thank you for that clarification.
    Mr. Thornberry, the gentleman from Texas.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. Secretary, I want to actually continue along the line 
in some areas you referred to in this new or at least added 
dimension of warfare. And I want to use as an example an 
incident that was written about in this current issue of 
Military Review, not because it is the only incident, but 
because it has been talked about publicly and I can ask you 
about it.
    Some of our Special Operations folks with some Iraqi 
Special Operations folks conducted an operation against a Jaysh 
al-Mahdi (JAM) death squad in Iraq, and our folks were good. 
There was a shootout. You know, we didn't lose anybody. There 
were several of the JAM folks who were killed.
    But before our folks could get back to base, there already 
appeared on the Internet photographs and a story line about 
what happened. And they had removed the weapons from the JAM 
folks, they had rearranged the bodies so it looked like they 
were praying when they were shot, and the story line was 
``Americans broke into a mosque and killed these poor Iraqis 
while they were praying.''
    That all happened, was out on the Internet within 45 
minutes to an hour, picked up then by wire services and 
American and Iraqi media, of course, before we had anything to 
say about it. As a matter of fact, I understand our response 
didn't come until three days later, and it had to be a Pentagon 
press conference. This was before your time, but the issue, 
which you have talked about in a strategic sense, also gets 
down to a very operational level with strategic consequences, 
it seems to me.
    And so I would like your thoughts on the importance of 
having a media, press, communications element to every 
operation we conduct. And especially I am interested in your 
views about the speed with which we deal with those issues. If 
we have got to wait for something to go up the chain of command 
and get approved by this, that, and the other folks, we will 
never keep up with these folks who regard this element of 
warfare--in some people's minds they think that is the primary 
element, and the physical results are second.
    I see a quote here from David Kilcullen, who says, 
information side of al Qaeda's operation is primary. The 
physical is merely a tool to achieve a propaganda result.
    Seems like we are going to be always behind if we don't 
have decisionmaking at a lower level with the speed that is 
necessary to respond.
    Secretary Gates. First of all, in Iraq, I do think we have 
evolved the decisionmaking in terms of being able to respond to 
some of these things to lower levels. But the reality is, you 
know, we often speak disparagingly about our adversaries, but 
the reality is when it comes to strategic communications, they 
are very 21st century, and they are far more agile than we are. 
They tend to be able to operate inside our decision curve, and 
this is a big problem for us.
    I will tell you, I think it is an even bigger problem for 
us in Afghanistan. And one of the problems there is when there 
are--let us take the usual case where the Taliban have used 
civilians as shields or mingled among them, and civilians are 
killed in the course of a coalition operation. That information 
is all out on the Internet and very widely distributed. And our 
approach in the past has been--well, it has actually been very 
American: Well, let's go figure out what the facts are, and 
then we will decide what to do.
    And the guidance that--what I told President Karzai the 
last time I saw him early this winter, and what my guidance to 
General McKiernan was, we have got to reverse the way we do 
this. The instant we believe there may have been civilian 
casualties, we have to be out there; and instead of arguing how 
many there were or whether there were any, we need to say, if 
there were innocent civilian casualties, then we deeply regret 
this, and we will make appropriate amends; then go investigate 
it, then find out the facts; and if we need to do something for 
some additional people, then fine, and if we have overpaid 
somebody or paid somebody we shouldn't, that is the price of 
strategic communications, in my view. But we need to be out 
there faster than the Taliban in characterizing these 
incidents.
    So as I say, I think the problem actually is worse in 
Afghanistan certainly now than it is in Iraq now. And it is 
something that I know General McKiernan and others are really 
working hard on to increase our agility.
    The Chairman. Mr. Taylor.
    Mr. Taylor. Secretary Gates, first I want to thank you for 
taking this job and thank you for staying in the job. I think 
you have done a great job.
    I applaud your words towards acquisition reform, and so I 
would like to bring to you a specific instance.
    Last year Congress authorized and appropriated about $960 
million towards Landing Platform Dock (LPD) number 26. We have 
a Nation where steel mills are shutting down. We all know the 
price of steel has really tanked in the past few months. We 
have gone from paying probably way too much to a very 
reasonable price. Of the $963 million that Congress authorized 
and appropriated, I am told only $10 million has been put under 
contract.
    I would ask you to encourage your acquisition folks to take 
advantage of these low prices, and I would also point out to 
you that if there is something in the Code that is keeping our 
Nation from taking advantage of low steel prices, low aluminum 
prices, low copper prices, commodities that just a year ago 
were sky high, they are very reasonable now, things we are 
going to need for the next generation of Littoral Combat Ships 
(LCS's), carriers, amphibious assault ships, I would certainly 
welcome your recommendations and your help to find ways where 
we can get some bargains for the taxpayer.
    Second thing I would ask you to do, we have both been 
around this town for a while. The beginning with any effort is 
always very expensive, whether it is a fighter or a mine-
resistant vehicle. At the tail end of that run, we always get 
our best bargains. I am frustrated that the Army that says that 
we train as we fight, well into this conflict and several years 
after we started a major acquisition of mine resistant ambush 
protected vehicles (MRAPs) that you were very, very helpful on, 
still has almost none of them at our major training 
installations; that for a great many soldiers who are going 
into Iraq and Afghanistan, the first time they see an MRAP is 
either in Kuwait or when it is delivered to their base in 
Afghanistan and Iraq. And I am afraid that we are needlessly 
losing troopers to noncombat accidents that could be avoided 
with the proper training.
    Given the fact that we have manufacturers that are the tail 
end of that rung that I think would be willing to make us some 
decent prices on these vehicles, I would again ask you and your 
acquisition folks to--let us find a way that we can take 
advantage of the situation, get these vehicles to the training 
situations where they are needed, and do it in a way that not 
only is the best for the troopers, but at the best value for 
the taxpayer.
    And if you have time to comment on any of those, I welcome 
your remarks.
    Secretary Gates. I think it is really important--now that 
we have got a lot of MRAPs in the theater, it is really 
important to get them to our training facilities. I would say 
the same thing once we reach a certain level of capability in 
terms of intelligence reconnaissance and surveillance 
platforms; we need to get some of those to places like 
Twentynine Palms and Fort Polk and places like that so that the 
first time a battalion commander actually trains with a real 
Predator or a real Reaper or something like that is not when he 
is in theater, having just basically done a simulator before 
that.
    So I think getting these kinds of capabilities which, 
frankly, I have been pushing to the theater as fast as 
possible. Now that we have reached really critical mass on the 
numbers, particularly on MRAPs, I think getting them to the 
training facilities is important because you have put your 
finger on a real problem. These are amazing vehicles, but they 
are hard to drive, and we have suffered needless casualties 
among our troopers because of that.
    Mr. Taylor. How about on the LPD-26? I realize I am 
catching you cold, but this is money that has been authorized, 
appropriated. I realize there is some reluctance within the 
Navy to say, well, you know, you haven't funded the whole ship. 
In my book, $960 million is one heck of a down payment and a 
heck of a statement by Congress saying that we are going to 
build this ship. And it really gets frustrating that given the 
fact that steel mills are shutting in our country, that someone 
isn't taking advantage of these prices and getting this moving.
    Secretary Gates. I will look into it. I am not aware of the 
specifics. I don't think there is a problem in the law.
    I don't want to step off into a debate about the F-22, but 
one of the things we have used the advanced procurement money 
for that the Congress authorized was to buy the titanium for a 
full buy for lot ten of the F-22s, because if the new 
Administration decides not to buy the F-22s, there are a lot of 
other airframes we can use that titanium for.
    Mr. Taylor. Lastly, what do you anticipate your 
shipbuilding will be? Because again, I think you have done a 
great job, but I have sat in here for many years. Say they 
wanted a 313-ship Navy, but only asking asked for 7 ships a 
year. The real life of that ship, 30 years. That only gets you 
to a 210-ship fleet. So I would hope that this Administration 
is going to take the steps to actually get us to a 313-ship 
Navy.
    Secretary Gates. Mr. Taylor, I will have to wait and see 
what the top-line number for the defense budget for fiscal year 
2010 is before I can really answer that question.
    The Chairman. Mr. Akin from Missouri.
    Mr. Akin. Thank you, Mr. Secretary, and Mr. Chairman as 
well.
    I just had a quick question. It is along the lines of some 
of the specifics that we get involved in.
    One of them on sea power. We have got a bunch of aircraft 
carriers, but if they don't have any planes to go on top of 
them, they are not quite as effective. I guess we are running 
out of F-18s. We have got the Joint Strike Fighter coming 
along, but it still isn't there. Does it make sense to pick up 
some F-18s in a multiyear so that we don't end up with three 
aircraft carriers with no planes on the decks? And have you 
thought about that question or that problem?
    Secretary Gates. I will have to check and get back to you 
for the record, but my impression is that the Navy is 
interested in looking into doing that.
    [The information referred to was not available at the time 
of printing.]
    Mr. Akin. Thank you, Mr. Chairman.
    The Chairman. The gentleman from Texas Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Let me add my thanks to you, Mr. Secretary, for your past 
service and agreeing to stay on.
    In your Foreign Affairs article you state that we must not 
be so preoccupied with preparing for future conventional and 
strategic conflicts that we neglect to provide all of the 
capabilities necessary to fight and win conflicts such as those 
that we are involved in today.
    How do you envision institutionalizing a counterinsurgency 
focus within the Department, and as a subset of that question, 
can you elaborate on the closeness with which DOD is working 
with our intel agencies and where you see that going? And also, 
the last part is what do you need from us in Congress to ensure 
that you have all of the necessary parts of support from us to 
make that happen?
    Secretary Gates. First of all, Mr. Reyes, I would say that 
I think there are two approaches to institutionalizing what we 
have learned in Iraq and Afghanistan so that we don't forget 
again as we did after Vietnam.
    The first of these is putting the kind of leadership in 
place that gets it and is prepared to fight for it. And I am 
enough of an old Kremlinologist that I believe in putting the 
right people in the right places. So I think General Casey is 
providing good leadership in this regard in the Army, but also 
the placement of General Corelli as his deputy, as the Vice 
Chief, General Dempsey as the Commander of Training and 
Doctrine Command for the Army, General Petraeus at U.S. Central 
Command (CENTCOM), General Odierno in Baghdad. An Army officer 
can outlast one or two people he doesn't disagree with. It is a 
lot harder to outlast five or six.
    So, first of all, I think institutionalization comes with 
having leadership that believes in the importance of what we 
doing.
    Second with respect to institutionalization is figuring out 
the way to build institutional capability within the Department 
of Defense in which to fight and wage current wars. Right now, 
as I indicated in my opening statement, one of the lessons 
learned is the Department of Defense is very good at preparing 
plans for wars, it is very good at preparing and perhaps waging 
short wars, but it has very little capability to wage long 
wars. So all of the really significant achievements that we 
have had in terms of trying to protect our soldiers--whether it 
is MRAPs or additional intelligence, surveillance, and 
reconnaissance (ISR) capability or even the counter-improvised 
explosive device (IED) organizations--all had to be done 
outside the regular bureaucracy of the Department of Defense 
through special task forces or organizations created by the 
Secretary.
    So we have to figure out a way how can we inside the 
Department, inside the bureaucracy, have parallel capabilities 
of people and institutions that are committed to waging the 
wars we are in as well as planning for wars we might be in in 
the future.
    With respect to fusion of intelligence and the military, I 
will just share with you the first time I was in Baghdad with 
the Iraq Study Group in September of 2006, I spent about an 
hour or so with our Chief of Station, and I said, so how is the 
cooperation with the military? And he rather candidly said, oh, 
sir, you can't believe how much better it is than when you were 
Director.
    The truth of the matter is there has been a revolution in 
the cooperation between the military and intelligence in Iraq 
and now in Afghanistan and a fusion for operational activities 
between intelligence and the military that I think is unique in 
the history of warfare. And frankly, this is another thing that 
I think needs to be institutionalized so we don't forget about 
it.
    Finally, in terms of what we need that you all might 
provide, I think that to this point, the Congress has been very 
generous. When we have come up here with a need, whether it is 
MRAPs or ISR or money for caring for our wounded warriors, you 
all have provided what we have asked, and often more. As we 
prepare the final part of the 2009 supplemental and the final 
budget, I am sure there will be capabilities and needs that we 
will identify that we will be coming back to you for.
    The Chairman. The gentleman from Virginia, Randy Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. And, Mr. Secretary, 
thank you for being here.
    I want to echo what the Chairman said in appreciating your 
article in Foreign Affairs, especially when you talked about 
setting priorities. I know many members of this committee that 
I have spoken with have a difficult time sometimes 
understanding how the Pentagon sets its priorities, and 
especially with the Navy, how it sets those priorities, what 
calculus is used and what those priorities are.
    Specifically, I am concerned that many of those officials 
have said that the 313-ship Navy is really an aspiration and 
sort of some changes in the way business is done. It can't 
realistically--we can't get there. Admiral McCullough, as you 
know, recently has said that the service could not afford to 
buy the ships and aircraft it needs. We know three major 
priorities: a backlog of shipyard maintenance, 100 percent need 
that we have; we know shortage of naval aviation aircraft, 100 
percent need; and we know serious trouble in the Navy 
shipbuilding budget, 100 percent need.
    The question I have for you is as to the decision to move a 
carrier from Norfolk to Mayport, Admiral Robert Thomas, the 
Director of Navy Strategy and Policy Decision, who wrote the 
strategic disbursal analysis that was used as the primary basis 
of making that recommendation, has specifically stated that no 
one--not you, not the Secretary of the Navy--no one asked him 
to quantify the probability of risk that something would happen 
that would justify having to move that carrier down there.
    And my question is don't you feel that it is a critical 
aspect of making those kinds of decisions when we are setting 
our priorities today to at least ask the question about the 
probability of risk that we are trying to avoid? And if we are 
not asking those kinds of questions, how do we have much 
confidence that we are making the proper allocations when we 
have such limited resources?
    Secretary Gates. I think that asking for an evaluation of 
the risk is certainly legitimate. I do know we have two home 
ports for aircraft carriers on the west coast. I do worry about 
everything being concentrated in one--on the east coast, which 
does receive a lot of hurricanes. We had an aircraft carrier in 
Mayport until the John F. Kennedy was decommissioned.
    But I am absolutely confident that this issue--first of 
all, it is six or seven years in the offing, and I am 
absolutely confident that this issue and the kinds of questions 
that you are asking are certain to be reviewed by a new Navy 
Secretary, and I will review them as well.
    Mr. Forbes. And, Mr. Secretary, I would thank you for that.
    But I just again want to point out I think it is imperative 
that we ask those kinds of questions before we make those 
decisions. And secondly, when you ask Admiral Thomas--who wrote 
the plan; again, who should be the person to ask--if you ask 
him, he would tell you that the risk was so small that it was 
less than a 10 percent risk.
    And they are the kind of questions I think we just need to 
ask before we are spending upwards of $1 billion when we have 
so many other priorities that we have to have. So I just ask 
you to perhaps ask that question and get it in the calculus.
    And with that, I would like to yield to the gentleman from 
New York.
    Mr. McHugh. Well, Mr. Secretary, would you like to respond 
to the gentleman from Virginia before I make a couple of 
comments?
    Secretary Gates. No. Please, go ahead.
    Mr. McHugh. I want to revisit just very briefly the very 
lucid description--and I mean that very sincerely--that our 
Chairman made with respect to the categories of our potential 
detainees, our detainees in fact.
    What concerns me is the uncertainty that has been created 
here. The Boumediene decision extended the right of writs of 
habeas to all of these prisoners. The added uncertainty, it 
seems to me, in the absence of being able to find nations that 
will accept these 50, 60, however many eligible detainees for 
release, suggests that the possibility of their release by the 
courts into the United States is dramatically increased.
    The other thing I would suggest to you, Mr. Chairman, and 
respectfully, Mr. Secretary, the fact of the matter is our 
legal authorities, as I understand them, are clearly defined 
with respect to holding people taken on the battlefield in Iraq 
and Afghanistan.
    I mentioned the possibility of picking up Osama bin Laden 
in Pakistan for a very purposeful reason, and that is, I would 
suggest our legal authorities in Pakistan are far less certain, 
and I think, again, that uncertainty suggests that we need to 
have a policy in place. And a plan without a policy doesn't 
meet that objective. And uncertainty as we have right now is 
not tantamount to increased security.
    So you may wish to comment on that, but I think the 
underscoring of the message is we have to begin to establish 
these policies, agreed with or not, that the Bush 
Administration had in place so that we can be assured that bad 
people won't be released in the United States. And equally 
important, when we take high-value targets, dangerous people, 
off the what we would consider battlefield--being Iraq, 
Afghanistan, be it in Djibouti, being it in Pakistan--to keep 
America safe, and I would hope you would agree with that.
    Secretary Gates. And the comment I would make, Mr. McHugh, 
is I can't imagine a situation in which detainees at Guantanamo 
who were considered a danger to the people of the United States 
would simply be released here.
    Mr. McHugh. I would say I respect that, Mr. Secretary, and 
also note that according to DOD's statistics, we have in excess 
of 10 percent who were deemed safe and returned to the 
battlefield. So there is no certainty.
    The Chairman. To make it clear, in my description none of 
them would be allowed to be released here in America. That is 
according to the information I have.
    Before I go on to Dr. Snyder, let me make a comment about 
the size and ships. There seems to be in more recent, Mr. 
Secretary, challenges that have not been there before which 
calls for substantial navies--not just for America, but for our 
friends and allies--the specter of the piracy in different 
parts of the world, particularly along the Horn of Africa. And 
that seems to call for keeping the high level of ships that 
have been proposed and ordered by this committee put intact.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here. I appreciate your 
service.
    I recall last year we had a very good discussion here with 
you and Secretary Rice. And if Chairman Skelton invites you and 
Secretary Clinton to come and continue that discussion about 
interagency issues, I hope you will take advantage of that, 
because I think those are very important long-term issues.
    I have several questions I want to ask, and I am going to 
err on the side of brevity if you will err on the side of 
brevity in your answers.
    First of all, the issue, whether we are talking about the 
16-month withdrawal or Iraqi forces moving into certain areas 
and replacing U.S. forces in Iraq, the issue of who protects 
our Provincial Reconstruction Teams (PRTs) is a present one.
    Do you think that issue has been adequately solved, or is 
that an ongoing discussion in how to protect our PRTs in those 
areas where U.S. troops are no longer the lead force?
    Secretary Gates. The plans that General Odierno has 
developed in conjunction with Ambassador Crocker foresees that 
as we consolidate our forces, we also consolidate our PRTs in 
the civilian side of the presence in Iraq so that the two would 
be stationed together, and our forces would be in a position to 
continue to protect the civilian element, including the PRTs.
    Dr. Snyder. We had the issue come up last year that 
President Bush attached a signing statement to the defense 
bill. Mr. Skelton received assurances from Secretary England at 
that time that the Department of Defense would comply with 
everything that was in the defense bill. It was their intent to 
do so.
    Would it be fair to say that it is your intent to follow 
the defense bill as it was written, that we don't have to worry 
about sections of it being ignored?
    Secretary Gates. Certainly not from my standpoint, sir.
    Dr. Snyder. And you are in this unique position, Secretary 
Gates, as you have often been in your life.
    The issue has come up about the term ``burrowing,'' 
political appointees towards the end of an Administration--and 
it has happened in both Republican and Democratic 
Administrations--finding positions in the permanent civil 
service when they began as political appointees.
    You are in a position to let us know--I am going to do this 
as a question for the record--if you think that has been a 
problem in the Department of Defense where political 
appointees, who really should be replaced by other political 
appointees, have managed to interject themselves into the 
permanent workforce. Would you respond to that for the record, 
please?
    Secretary Gates. Sure.
    [The information referred to can be found in the Appendix 
on page 55.]
    Dr. Snyder. The issue in Afghanistan, one very specific 
issue as we talk about what is going on now and additional U.S. 
forces coming in, is what do we do with the poppy crop. And I 
know that one of the suggestions that is being discussed is 
spraying poppies. And I am one of those who has great concerns 
if it is U.S. personnel and U.S. equipment that were to be 
involved in the spraying of the poppy crop. I think that has a 
lot of ramifications for our relationship with the Afghan 
people. Bad things can happen.
    What are your thoughts right now about the possibility of 
U.S. troops being the people that would actually try to destroy 
a crop of poppies?
    Secretary Gates. I think certainly as any kind of a 
coherent strategy or being done on an organized basis, U.S. 
troops are not involved in destroying the crops. What they have 
been authorized to do, and where both the NATO defense 
ministers last December and I, in a change of rules of 
engagement a few weeks ago--what we have done is at the request 
of the Afghan Government, where we have evidence that a 
specific drug lord or a lab is being used by the Taliban or 
supports the Taliban directly, we have the authority to go 
after the drug lord and the lab, but not the crops.
    I would tell you my personal opinion. Crop eradication 
without having crop substitution in advance recruits Taliban. 
You can't go in and destroy a man's crop and give him nothing 
to replace it with or no cash with which to live until the next 
crop season and not expect him and his sons to work for the 
Taliban.
    Our allies are opposed to spraying. President Karzai is 
opposed to spraying. My view is the likelihood of any 
significant spraying program is pretty remote at this point.
    Dr. Snyder. I would think that a loyal Aggie could figure 
out a way of something to do with a set commodity to price for 
wheat or something to solve that problem. I appreciate your 
comments.
    The last thing I wanted to ask you about more as a comment 
is the issue that you talked about at length in your report 
about acquisition reform. And it seems like we have the same 
problem on the congressional side. It gets punted down the 
road. We all talk about it. Maybe one of the issues that we 
need to think about is maybe we all need to be doing it 
together more from the beginning. You all try to do things. We 
all talk about it. But maybe it is--we are going to have to 
have more of a commitment to try to work along together, at 
least informally, because it seems like we have got a lot of 
work to do and a lot of money that needs to be saved.
    I appreciate your comments. Thank you, Mr. Secretary, on 
your service.
    The Chairman. I thank the gentleman.
    I am told there are two votes with a possibility of three, 
but let us keep going for several minutes.
    Mr. Miller from Florida.
    Mr. Miller. Mr. Secretary, we are in the process now of 
debating an $800 billion-plus stimulus bill. Can you give any 
rationale why the Department of Defense did not take advantage, 
more advantage, of the opportunity in that package for military 
construction dollars? It looks woefully small in comparison to 
some of the things that you probably could have asked for. Was 
there a reason why DOD did not do that?
    Secretary Gates. The guidelines we were given were that the 
projects needed to be those where the work could actually 
begin, the money be spent, within six months or so. As we 
looked at it, we did come up with a pretty robust list that 
included additional work on military hospitals and situations 
where a lot of the preliminary work had already been done or 
construction was under way and could be accelerated: barracks, 
clinics, and child care centers. So we actually did provide a 
multibillion-dollar list to the White House.
    I would tell you--and I have had many conversations with 
Chairman Edwards of the Military Construction (MILCON) 
committee--I am very interested, over time, in making a 
substantial new investment in our military hospitals here in 
the United States, and particularly on large, consolidated 
military posts. I think that as we focus on wounded warriors 
and so on, we also need to focus on the soldiers, sailors, 
marines, and airmen who are stationed stateside in these large 
bases and sometimes the difficulty they have in getting access 
to high-quality health care. And I think that this is an area 
where we can make a contribution in a number of different ways.
    But most of those are long-term kinds of projects, and the 
environmental impact statements and other things that are 
required make them long-lead-time issues.
    Mr. Miller. I was specifically talking about some of the 
BRAC issues. We have a 2011 deadline for implementation, and it 
looks like some of the Base Realignment and Closure (BRAC) 
moves may be forced into a position where they may have to be 
phased in, may have to ask for some extension of times, and 
just looks like we may have missed a window to have completed a 
lot of these construction projects prior to that 2011.
    And one other question. You talked about punting and now 
being the receiver. You talked a little bit about the tanker 
program earlier, and you said, you know, basically once the 
procurement folks are confirmed and back in place. What kind of 
time frame do you think we are talking about once they are in 
place of getting this project up and running again?
    Secretary Gates. I would hope that we could get this 
process going by early spring.
    Mr. Miller. And do you have any idea how long the RFP 
process is going to take?
    Secretary Gates. I think what we have had in mind as a 
planning number is probably sometime, I hope, soon after the 
first of next year.
    Mr. Miller. There are several programs like the F-22 to the 
DDG-1000, future combat systems, and missile defense that all 
have been talked about being on the chopping block. You are 
going to be asked to help prioritize some of these projects and 
programs. Can you let us in on what your thought process there 
is going to be in regards to--you talked about the spigot being 
turned off, but how are you going to determine what programs 
are scaled back or eliminated?
    Secretary Gates. I haven't gotten into the specific 
programs yet, but in meeting with the senior defense 
leadership, the philosophical approach that I have outlined to 
them that I believe, as I have said in the Foreign Affairs 
article, that the most likely kind of conflict we will face in 
the years to come will be a spectrum of conflict from complex 
hybrid kinds of conflict down to a guy with an AK-47 or basic 
counterinsurgency.
    Some of our adversaries are now in a position to buy from 
near peers the kind of high-end technology that we might not 
have expected to encounter unless we were in a conflict with 
one of those near peers; for example, some of the air defense 
systems.
    So the broad philosophical approach that I have outlined is 
I want us to look for systems that have the maximum possible 
flexibility across the broadest possible range of conflict. In 
other words, I want stuff that is usable in a number of 
different kinds of environments, including potentially high-end 
as well as low-end. And I also want to be willing to go for 
low-end technology; for example, some of the intelligence, 
surveillance, and reconnaissance platforms we are putting into 
Afghanistan.
    But that broad philosophical approach is the underpinning 
to whatever analysis I will carry out.
    The Chairman. Before calling on Mr. Smith, at some point 
for the record, Mr. Secretary, would you give us some examples 
of the type of systems of which you speak on the high end that 
can be used in the more broad sense?
    [The information referred to can be found in the Appendix 
on page 55.]
    The Chairman. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. I appreciate you being here, and 
I really appreciate your continuing on as Secretary of Defense, 
no small task. And it is very important to have the continuity 
that we have, and I really appreciate your service and your 
decision.
    Just two things that I want to touch on. You had mentioned, 
in answer to a question by Representative Reyes, the fusion 
between the Intelligence Community and the DOD in Iraq and also 
in Afghanistan, and I completely agree. The system that has 
been set up there has been working amazingly well and I think 
is an excellent model for interagency cooperation. I give 
particular credit to General McChrystal for having a lot to do 
with pulling that together. But I know others were involved, 
and I would simply suggest that that would be a great model for 
some other areas where we need interagency cooperations. 
Specifically, as I understand it, strategic communications was 
raised earlier. There are so many different players involved in 
that in our government. Finding a way to get them to work 
together more carefully could improve that.
    And I am also very interested in the economic development 
piece of counterinsurgency; again, many different agencies 
involved. Some in the State Department and in the development 
world are concerned the degree to which the Department of 
Defense is getting involved in that. I think it is fine, but we 
have to try to pull all of those pieces together. And I would 
say that is an excellent model to work off of.
    The one question I have is on Afghanistan, and specifically 
NATO's role and how we can work towards more cooperation and 
coordination. I think you would agree that there has been a lot 
of disparate opinions, admissions in terms of our European 
allies, and that we could get more out of the resources that 
are being implemented, and we could do more to get everybody on 
the same page. And I just wanted to hear a little from you 
about how we are going to get our allies and us closer to 
working better together on the Afghanistan challenge.
    Secretary Gates. I think that our allies can help us in 
three ways. First is obviously additional military forces, 
preferably without caveats, national caveats. There is some 
indication from the public statements and other things that we 
have heard that some of our allies, in fact, are prepared to be 
responsive to a request from our new President for additional 
help. Frankly, I don't think the numbers will be huge, but I 
think they are prepared to do some more.
    The second area in which they can really help us is in 
civilian trainers, both for the police and the army, but also 
on the whole civil sector of society, the rule of law, and so 
on, governance and so on.
    And then the third area is kind of a financial contribution 
in helping to cover the cost of the rapid and accelerating 
expansion of the Afghan National Army and Police.
    Mr. Smith. Do you sense a willingness to do that? Do you 
think that there is an opening here with a new Administration 
on our side to try to get some of that cooperation? Because I 
know you have been very pointed in asking for that help, and I 
appreciate that. It hasn't yet come. Do you think there is a 
reason that we can have more success now?
    Secretary Gates. I think that having--that with the advent 
of a new President, I think there are some new opportunities.
    Mr. Smith. I also wanted to follow up on Dr. Snyder's 
question on the poppy eradication. And I support your answer.
    During the couple of trips that I have made over there, 
however, there are some within our government that would give a 
slightly different answer that would seem to be more supportive 
of eradication. Now, I have also spoken with General Jones 
about this. He gave the exact same answer that you gave.
    I just want to make sure that you are confident that 
everybody, including the Ambassador, is on the same page about 
how we proceed with that very important issue.
    Secretary Gates. Well, the Drug Enforcement Agency and 
those that it is working with do have a different mission, and 
their mission is to bring about a significant reduction in the 
narcotics growth. Now, I am not sure, frankly, where DEA stands 
now on the eradication issue.
    The reality that we face is that 98 percent of the poppies 
in Afghanistan are grown in 7 provinces, and they happen to be 
in the ones where security is the worst. So the nature of the 
problem has changed, I think. And one of the things that has 
been interesting is in some of the provinces where there was 
poppy growth, even though it wasn't a huge problem, good 
governance has led to the eradication of the poppy crop in 
those provinces. And that is why there has been this 
concentration, particularly in Regional Command (RC)-South.
    Mr. Smith. Right. And that is, obviously, I think, a much 
better approach to moving them off of the dependency on poppy 
is to give them an alternative, as you said.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Secretary, we will rush and vote courageously twice and 
come back as soon as we can so we can meet your deadline of 
five o'clock.
    [Recess.]
    The Chairman. We will have a hard stop at 5 o'clock. The 
Secretary will be leaving then, so let's proceed. Five minutes.
    Mr. Bartlett, you were--wait a minute. Who is next? Mr. 
Wilson, instead of Mr. Bartlett, five minutes.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for your past service, for 
your current service. In particular, as a 31-year veteran of 
the Army National Guard, 4 sons serving in the military, 3 in 
the National Guard, 2 have served in Iraq, I have a great 
interest in the National Guard, and I am very proud of what the 
National Guard is doing and has done. I have never been 
prouder. My former unit, the 218th Brigade, served for a year 
and completed last year training Afghan police and army units. 
So I know the extraordinary capabilities of our National Guard 
and their dedication and their appreciation of serving.
    But as we look ahead with the new Administration, can you 
give us a view as to whether the National Guard and the 
Reserves will be used as an operational force, as they have for 
the past six years, or will they revert back to the historical 
role as a strategic reserve?
    Secretary Gates. Sir, I think that they will continue to 
serve as an operational reserve. We need them. They have, in 
particular, skill sets that we are very short of in the regular 
force. However, I think that our obligation to them is to 
continue with our programs that will get us back to the one 
year deployed, five years dwell-time at home.
    I think that my sense from talking to guardsmen is that 
they have welcomed, for the most part, the opportunity to serve 
and feel good about the contribution that they have made. So I 
foresee keeping them as an operational reserve.
    One other aspect of keeping them as an operational reserve 
is that, for the first time, as we backfill and re-equip the 
Guard, we are equipping them with the same materiel, the same 
equipment that we are giving the active force. So, instead of 
receiving sort of secondhand clothes, secondhand equipment, if 
you will, they are going to receive the same level of 
technology, the same kind of equipment that the active force 
has. And I think that, in its own right, will probably 
contribute to morale on the part of the National Guard, because 
they will see themselves as an integral element of the entire 
national security team.
    Mr. Wilson. And on my visits, nine times to Iraq, seven 
times to Afghanistan, I agree with you, and then in visiting 
with Guard members upon return, they are very, very grateful 
and proud of their service.
    And, indeed, with the increase of operational tempo and the 
blurring of the lines, the distinction between Guard Reserve 
and active, do you believe that there should be a relook at the 
compensation package, which is different between the Guard 
Reserve and active-duty forces?
    Secretary Gates. I certainly am willing to take a look at 
that. This is the first time that somebody has raised the 
compensation issue with me, so perhaps we can get some 
particulars from you in terms of their concerns so we can look 
at it.
    Mr. Wilson. And part of the compensation, Mr. Secretary, 
would be the retirement and how it is applicable to age 60. And 
then we did make, I think, a significant first step of 
providing for less than age 60 for persons who have been 
deployed for a period of time. And so I look forward to working 
with you on that.
    Additionally, the circumstance in Afghanistan, you have 
recently changed the rules of engagement relative to the narco-
terrorist drug lords. What has prompted that change? And then 
what has been the response by our NATO allies?
    Secretary Gates. Actually, the change in the rules of 
engagement started with our NATO allies and a request by 
General McKiernan for the authority to be able to--and General 
Craddock--for the authority for NATO forces to be able to go 
after some of these drug lords and these labs that are 
providing the funding for the Taliban.
    The NATO defense ministers, in December, agreed unanimously 
to a request from the Afghan Government for help along these 
lines when we could show that there was a link between the drug 
lord or the lab and the Taliban. So when it came time, as those 
NATO rules of engagement (ROEs) were being put in place, some 
of our own people thought that our U.S. rules of engagement 
were not as forthcoming as what NATO had approved, and so there 
was a need to go back and clean that up so that the U.S.-only 
forces had the same authorities as the NATO forces.
    Mr. Wilson. Thank you.
    The Chairman. I thank the gentleman from New Jersey, Mr. 
Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your patience today and for 
your exemplary service to our country.
    In today's statement, you say that--I am quoting--``There 
is little doubt that our greatest military challenge right now 
is Afghanistan.''
    And in your Foreign Affairs article, I think you are 
probably referring to Afghanistan, although it is a broader 
reference, when you write, ``Where possible, what the military 
calls `kinetic operations' should be subordinated to measures 
aimed at promoting better governance, economic programs that 
spur development, and efforts to address the grievances among 
the disconnected from whom terrorists recruit. It will take the 
patient accumulation of quiet successes over a long time to 
discredit and defeat extremist movements and their 
ideologies.'' I think that is extremely well-said.
    What tools do you think this committee could provide you 
with in the bill that we do each year that would help you win 
those quiet victories that accumulate over time? Within our 
jurisdiction, governing the conduct of the Department that you 
lead, what tools do you presently lack, and how would we 
provide them to you?
    Secretary Gates. There are perhaps, sir, some specific 
areas where we could use additional help. But, to tell you the 
truth, the real deficiency that the whole-of-government 
approach that I described in that article requires are 
principally in other departments, principally in the Department 
of State, United States Agency for International Development 
(USAID), but also creating an expeditionary capability in the 
Department of Agriculture, in Commerce, in Treasury. And these 
are the places that have the expertise that bring those quiet 
victories that I was talking about.
    We also don't have a way--I have talked about the 
difficulty of coordinating all the different civilian 
organizations and various organizations that are active in 
Afghanistan. One huge opportunity that I think we haven't 
figured out how to use to the maximum extent possible, 
something that I feel strongly about, is the number of 
universities we have that are at work in Afghanistan, in 
agriculture and various other places. A lot of our land grant 
universities have people there. But how do we harness that with 
the U.S. Government efforts and USAID and so on?
    So I think it is more on the civilian side of the U.S. 
Government where we lack the capacity to bring all of the tools 
of national power to bear. This committee and your counterparts 
in the Senate have really given the Department of Defense, I 
think, most of what we need.
    Mr. Andrews. Mr. Secretary, if you weren't burdened by the 
burdens of jurisdiction--and with no disrespect intended to 
those who have run these other departments and agencies--what 
changes in the PRT structure would you make to make them more 
effective in the field, in Afghanistan in particular?
    Secretary Gates. Well, principally, it would be the 
addition of civilian expertise. Particularly in Afghanistan, a 
considerable percentage of the PRTs are actually staffed by 
people from the Department of Defense; often many of them from 
the National Guard.
    Mr. Andrews. Right. I recall a visit to Khost province in 
Afghanistan about a year ago, where I believe we had two people 
that we met that were not DOD employees or military personnel. 
They are doing a very good job, but it was almost by accident 
because there were some agricultural skill sets that the 
soldiers had that, again, I think purely more by accident than 
anything else.
    Secretary Gates. But I will tell you that our PRT leaders, 
the brigade commanders who work with the PRTs will tell you 
that even a handful of civilians pay huge dividends. Their 
expertise, with the kinds of things that they do every day, 
they are a huge value added.
    Mr. Andrews. Well, we would certainly, to the extent that 
we can, encourage you and Secretary Clinton and Secretary 
Vilsack and others to work together and do that, because I 
think that your remarks are so insightful and so welcome. And 
we thank you for delivering them.
    The Chairman. It may be of interest--I know the Secretary 
knows this--that National Guard troops, particularly from 
Missouri, are helping a great deal in the area of agriculture. 
And I spent Thanksgiving with them, and there is a staff 
sergeant, part of the National Guard, that is a full professor 
at the University of Missouri School of Agriculture as one of 
the assistants that are helping the Afghan folks learn more 
about growing things.
    Secretary Gates. Maybe we should do this on a league basis. 
We could have a Big 12 PRT and a Big 10 PRT.
    Mr. Andrews. Will there be an Ivy League PRT?
    The Chairman. Just so Missouri wins.
    Mr. Franks, please.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you, Secretary Gates, for being here. I think you 
have a very challenging job transitioning from one 
Administration and one commander in chief to another because of 
the divergent views between different Administrations and 
Presidents. And I want you to know I admire that. I think you 
were a tremendous leader in the previous Administration, and I 
thought you were very effective at advocating for the European 
missile defense site.
    So I guess I have to ask you, what advice will you give the 
new President on the European site? And what, in your opinion, 
are the implications for our strategic partnerships in Poland 
and the Czech Republic and even Russian perceptions if we delay 
or abandon this initiative?
    Secretary Gates. Well, I think the place to start is by 
acknowledging that the NATO heads of government unanimously, 
last April in Bucharest, endorsed the idea of the importance of 
missile defense for Europe, and, in particular, a layered 
defense. So I think we need to start with the reality of what 
our NATO allies have supported and what they have indicated 
they would do.
    As I indicated in my testimony this morning before the 
Senate, I think that, in parallel with that, there are perhaps 
now some new opportunities in terms of trying to persuade the 
Russians to participate with us in this program. That would 
clearly please the Europeans, please our NATO allies. And, 
frankly, I think the Russians, in my conversations with 
President Putin and in other conversations that we have had 
with their military, I think there is actually, if you put the 
politics aside, there is actually some interest in this.
    So my hope would be that we could--we need to remember 
where the alliance is, but I think there are also some 
opportunities in terms of reassuring the Russians with respect 
to the sites in Europe but, at the same time, perhaps getting 
them to partner with us. They have indicated interest in things 
like a joint data center in Moscow, joint use of radars.
    I think part of their problem is that they have a different 
perspective on how soon the Iranians can have a missile of 
enough range to reach Russia and most of western Europe. And, 
frankly, I think their intelligence is just bad, because I 
think our view is that they could have a missile with that kind 
of range in two or three years. The Russians talk in terms of 
10 or 15 years, and I just think that is wrong.
    Mr. Franks. Well, I think that is a critically important 
distinction, because the big thing about the European site is 
it potentially has the ability to devalue an Iranian nuclear 
program if it is brought on line soon enough. And I think that 
is of critical consideration to the world.
    In your testimony, you stated, ``One of the greatest 
dangers that we face in the toxic mix of rogue nations is 
terrorist groups and nuclear, chemical, or biologic weapons. 
And North Korea and Iran represent uniquely vexing challenges 
in this regard.'' And, of course, I couldn't agree with you 
more.
    For nearly two decades, Western strategy on the Iran 
nuclear issue has emphasized the denial of supply. And you 
mention other potential nonmilitary ways that you suggest a new 
Administration should attempt to blunt Iran's power.
    So my question is this: What we have not done in the last 
decade--what do we plan to do in the next two or three years to 
turn this around? In other words, what have we not done that we 
should have done? And what do we plan to do in the next two or 
three years to turn it around?
    And if we find, two years from now, that Iran has just 
gained more time and more fully developed their capability, 
perhaps even to the point where they have become a nuclear 
power, which I think is a profound threat to the human family, 
what will we do then, Secretary Gates?
    Secretary Gates. Well, first of all, I think that there are 
still opportunities available to us. What we really require is 
for the Iranian Government to determine of its own accord that 
pursuing nuclear weapons are not in their own national security 
interest.
    One way to do that is to make it an extremely costly 
program for them. I think that the sanctions that we have put 
in place, both internationally and unilaterally and in 
bilateral partnership with some of our partner nations, have 
had a real impact in Iran. And I will tell you that that impact 
has been magnified dramatically by the drop in the price of oil 
from $140 a barrel to $40 a barrel. It has just magnified the 
impact of those sanctions, and they have serious internal 
economic problems.
    But I think we also need to talk about, what are the 
consequences for Iran's security if they spark a nuclear arms 
race in the Middle East? What if other countries surrounding 
them decide that they also must have nuclear weapons? I think, 
under those circumstances, is Iran's security advanced by 
having nuclear weapons or is it degraded? And I think we have a 
compelling case that we can make.
    Mr. Franks. Thank you, Mr. Chairman.
    Thank you, Secretary Gates. I hope we don't underestimate 
their resolve.
    The Chairman. Thanks for the gentleman.
    The gentleman from Washington, Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Secretary Gates, I want to ask some questions about China, 
to change the pace a little bit and think a little bit more 
long-term. Because, as recently as last week, the chief 
People's Liberation Army (PLA) spokesperson cited a time of 
difficulties in the U.S.-China military relationship, primarily 
caused by the Chinese opinion of U.S. arm sales to Taiwan.
    Short of reversing U.S. arms sales to Taiwan, which I don't 
think anybody--very few people from Congress would support, 
what steps can U.S. and China take to demonstrate a desire for 
continued military-to-military exchanges and that mil-to-mil 
relationship, which seems to be cut short a little bit by the 
Chinese response?
    Secretary Gates. I think that we have some real 
opportunities. We just opened a direct hotline between myself 
and my Chinese counterpart about six months ago that we agreed 
to when I was in China a little over a year ago.
    I think that we have had a number of military officers 
visit China. We have started a strategic dialogue for the first 
time, talking about strategic intentions and, kind of, where we 
are headed. This was something that I had proposed when I 
visited there, as well. Reflecting back on the value and 
importance of the dialogue we had with the Soviet Union during 
the Strategic Arms Limitation (SALT) talks, if we had a better 
understanding of how each other thinks about these strategic 
issues, then maybe we can avoid mistakes and miscalculations.
    So those things are going forward. And I think here is 
another place where a new Administration here, a fresh start, 
perhaps creates opportunities to reopen the aperture, if you 
will, on military-to-military contacts. They have made their 
point about the arm sales to Taiwan. They warned me about it 
when we went there. They knew that it was going to happen. And 
it is just a matter of getting past that and onto the longer-
term interest of both states.
    Mr. Larsen. I think both opinions are reflected in the 
PLA's white paper, a criticism of it, but also a discussion 
about their military-to-military relationship with the U.S.
    On that point, one issue you discussed was cybersecurity 
and the cyber infrastructure. And, not to point fingers, but it 
seems to me that the damage to relations between two 
countries--say, U.S. and China--seems to be greater than the 
damage caused by any cyber attacks against U.S. cyber 
infrastructure.
    That seems to be my view. I don't know if that is your 
view, as well. And if you could talk about the DOD's attitude 
to these intrusions. And then, for the record, if you can get 
back to us about concrete efforts we are doing to address that.
    Secretary Gates. I would say, though, that in the context 
of the range of weapon systems and capabilities that we have 
been talking about here today and my view of them and, sort of, 
questions about high tech, my view is one of the highest 
priorities that we need to focus on going forward and we will 
be working with the committee on is the need to strengthen our 
cyber capabilities, and particularly our defensive 
capabilities.
    Mr. Larsen. Increasingly, we are seeing PLA forces involved 
in military operations other than war, such as the peacekeeping 
operations under the U.N. auspices and the recent deployment of 
Chinese naval assets to the waters off Somalia.
    Does the DOD have an assessment about this particular 
direction of the PLA? And do you see a day when U.S. and PLA 
forces might be serving side by side in some of these kinds of 
operations?
    Secretary Gates. I think that is conceivable. I think that 
the engagement of China in U.N. peacekeeping operations and the 
kind of multinational anti-piracy activities off the coast of 
Africa, this is constructive engagement in the international 
community. And I think we should do what we can to encourage 
it.
    Mr. Larsen. Finally, you mentioned the time line. This is a 
separate issue, the KCX tanker. You mentioned a time line about 
a request for proposal (RFP) in perhaps early spring and then 
maybe a decision by early next year.
    Late last year, you responded to a letter from Members of 
Congress about your views regarding a split-buy or dual-buy 
concept for the KCX, saying that--I don't recall if your letter 
specifically said you were against it, but basically the tone 
of your letter was a split-buy would be more expensive, it 
would be problematic to implement.
    Do you envision that your view will change with the new 
Administration, or will that be consistent with this 
Administration as well, no split-buy on the KCX?
    Secretary Gates. This is not an issue that I have had the 
opportunity to discuss with the new Administration. I will tell 
you that I think that the idea of a split-buy is an absolutely 
terrible idea and a very bad mistake for the U.S. taxpayer, not 
to mention for the U.S. Air Force.
    Mr. Larsen. Could you be more clear for the committee, 
please?
    Thank you, Mr. Secretary.
    The Chairman. The gentleman from Virginia is recognized for 
two minutes and, Secretary Gates, you are gone.
    Go ahead.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary Gates, thank you for being with us today. And 
congratulations on your reappointment. We are glad to have you 
on board.
    I wanted to refer back to your Foreign Affairs article, 
where you stated that we mustn't be so preoccupied with 
preparing for future conventional and strategic conflicts that 
we neglect all the capabilities necessary to fight and win 
conflicts such as those the United States are in today.
    And I was wondering, how do you envision institutionalizing 
a counterinsurgency focus within the Department of Defense? And 
what do you think you need from Congress to ensure the United 
States has all the necessary military and soft power in order 
to achieve these objectives?
    Secretary Gates. Well, I think two ways. First of all, by 
appointing the right people to positions where they can 
institutionalize the thinking about counterinsurgency and low-
end or irregular warfare, if you will.
    But, second, I think there is strong institutional and 
bureaucratic support in the services and elsewhere for the 
long-term conventional and strategic capabilities. We need to 
figure out how to build within the structure of the services, 
and the Department of Defense in general, the structural 
capacity to be able to wage war on a current basis where we 
settle for 75 percent solutions in a matter of months or weeks 
rather than the long lead time.
    So I think it is both personnel and it is structure.
    The Chairman. Chairman McHugh has a word.
    Mr. McHugh. Well, Mr. Chairman, as I understand it, the 
Secretary has to leave us now.
    And I just wanted to express my and, on behalf of our side, 
our deep appreciation. If they gave Purple Hearts to civilian 
members, you would receive one for your stamina here today 
through two sessions in both houses.
    And, if I may, Mr. Chairman, I would just ask that those 
good members who stuck with us through this and have obviously 
important issues they would like to raise with the Secretary 
have the opportunity to submit questions for the record.
    The Chairman. Certainly. That goes without saying.
    Mr. Secretary, thank you. We appreciate it. And we hope you 
have a speedy recovery.
    Secretary Gates. Thank you, Mr. Chairman.
    [Whereupon, at 5:00 p.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                            January 27, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 27, 2009

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            January 27, 2009

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. SKELTON

    Secretary Gates. There are ``high end'' airborne, ground, naval, 
and space assets supporting operations in the CENTCOM AOR and in other 
regional operations. These systems have included strategic bombers 
supporting riflemen on horseback, M-1 tanks routing Iraqi insurgents, 
billion-dollar ships tracking pirates, the Future Combat System 
spinning out capabilities to troops in Iraq and Afghanistan, and 
overhead reconnaissance systems helping to portray the battlespace. 
These systems provide vital support to current and future warfighters 
and are flexible enough to address threats across the conflict spectrum 
although their capabilities generally exceed what is needed for 
irregular warfare. When there is an urgent capacity shortfall, the 
department must be prepared to quickly fill the gap with specialized, 
often relatively low-tech equipment that is suited for stability and 
counterinsurgency missions. [See page 24.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY DR. SNYDER
    Secretary Gates. We are confident that DoD personnel actions remain 
free of political influence or other improprieties, and we will ensure 
that ``burrowing-in'' is not a problem in DoD. We adhere to Merit 
System Principles, remain free of Prohibited Personnel Practices, and 
comply with all relevant civil service laws, rules, and regulations 
regarding the appointment and assignment of personnel during the 
Presidential Election Period. To that end, on May 19, 2008, the 
Department issued guidance to the DoD Components and Defense agencies 
governing appointments made during the designated Presidential Election 
Period. This guidance supplements the Office of Personnel Management 
memorandum dated March 17, 2008, ``Appointments and Awards During the 
2008 Presidential Election Period.'' Additionally, throughout the 
transition period, we will continue to routinely review personnel 
actions to ensure that OPM and DoD guidance are followed. [See page 
22.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 27, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. Mr. Secretary, you have mentioned on numerous occasions 
the importance of more effective use of our ``soft power'' assets. What 
changes are being made under the new Administration to improve 
interagency coordination and encourage more effective utilization of 
soft power within the Department of Defense?
    Secretary Gates. A strong interagency coordination structure has 
been set up under President Obama's leadership through the National 
Security Council structure. There are several ongoing reviews of 
Administration policy that will affect how the U.S. Government uses all 
assets in achieving national security goals. The Department of Defense 
will adjust its efforts based on the outcome of these reviews. Further, 
the Quadrennial Defense Review will examine the Defense capabilities 
for security and stability operations, as well as further changes that 
can be made to improve DoD's interagency coordination processes.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. REYES
    Mr. Reyes. How would you assess the capability of the Mexican 
government, including its military, to combat the current threat, and 
do they have sufficient tools to sustain a long-term campaign against 
criminal and drug trafficking organizations?
    Secretary Gates. As a State Department official recently noted, 
``The governance of Mexico has never been in question or doubt,'' but 
Mexico today faces deep and serious security challenges posed by 
powerful transnational criminal organizations. The Mexican government 
has taken major steps to confront these challenges, including using its 
armed forces in operations against the drug cartels, professionalizing 
its police forces, instituting anti-corruption initiatives, and 
establishing long-term judicial reforms. Organized crime and the drug 
cartels want to weaken the state so that it will be unable to interfere 
with their activities. Much of the violence is perpetrated by cartels 
fighting each other, and many of the murders result from criminals 
settling scores among themselves.
    The Government of Mexico has clearly demonstrated over the past two 
years its willingness to take strong and decisive action, committing 
lives and treasure while revamping its law enforcement and justice 
sector institutions for this task.
    The Mexican government's determination to tackle this problem head-
on is unprecedented. Over the last two years, the Calderon 
administration has demonstrated its intention to surmount the serious 
challenges posed by these transnational criminal organizations. The 
Calderon administration has taken major steps to confront the 
narcotraffickers and to enhance the capacity of the state to address 
crime and corruption. These steps have included removing high-ranking 
Mexican government officials linked to the crime syndicates and 
corruption, deploying the military in large numbers in operations 
against organized crime, professionalizing Mexico's police forces and 
prosecutors, extraditing top drug bosses wanted by U.S. authorities, 
and instituting long-term reforms to improve the efficiency and 
effectiveness of Mexican judicial institutions.
    We strongly support President Calderon and are committed to sharing 
the burden of reducing this threat to our common security and 
prosperity. Many U.S. departments and agencies, including DoD, are 
working with their Mexican counterparts to improve their capabilities 
to counter the criminal and drug trafficking organizations.
    We appreciate Congress' support for the Merida Initiative and 
bilateral security cooperation with Mexico.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. You indicated that it was your belief that the National 
Guard and Reserves would continue to be used as an operational force 
instead of their more traditional role as a strategic force. Do you 
believe that the Department, Congress and the Administration should 
reevaluate the way the National Guard and Reserves are compensated? 
Specifically, I am asking if early retirement should be looked at 
further, as well as the benefits that they receive.
    Secretary Gates. To comply with law, Department of Defense 
Instruction 1215.07, Service Credit for Reserve Retirement, dated 
November 7, 2008, implemented policy to allow members of the Ready 
Reserve to reduce the age of retirement from age 60, by three months 
for each aggregate of 90 days on which the member served on Active Duty 
after January 28, 2008.
    At this time, we feel that it would be premature to make changes to 
this policy just as it is being implemented, without the empirical data 
or known impacts that this early retirement will have on the Services' 
actuary accounts. As with the implementation of any new program, we 
anticipate a comprehensive review in the future, to make any 
modifications as appropriate.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOBIONDO
    Mr. LoBiondo. I would also like to bring to your attention GAO 
Report entitled, ``Homeland Defense: Actions Needed to Improve 
Management of Air Sovereignty Alert Operations to Protect U.S. 
Airspace,'' which I have attached for your review and comment.
    [The information referred to is retained in the committee files and 
can be viewed upon request.]
    Secretary Gates. When reading this report, it is important to 
understand that the GAO, in conducting its research, focused only on 
the day-to-day readiness of alert operations, a narrow aspect of the 
overall air sovereignty mission known as Operation Noble Eagle. 
Operation Noble Eagle is a coordinated, flexible joint operation that 
can readily draw upon the full capabilities of the U.S. Armed Forces to 
expand air defense alerts and operations to meet the challenges of 
increases in the threat to the United States or shortfalls in resources 
such as the grounding of the U.S. Air Force's F-15 fleet in 2007.
    That said, the Department is pursuing improvements to the U.S. Air 
Force fighter force supporting the air sovereignty mission of the 
United States. The challenges surrounding this high-priority effort are 
complex, involving options ranging from basing for a new fighter 
aircraft--the F-35--to modernization of the U.S. Air Force fighter 
aircraft inventory, but I am confident that solutions are near at hand.
    Mr. LoBiondo. Would you be supportive of an interim buy of 4.5 
generation fighters (i.e. new blocks of existing F-15s or F-16s) with 
upgraded capabilities? Or at the least, supportive of a Service Life 
Extension Plan (SLEP) to keep the ASA mission in place and viable?
    Secretary Gates. As long as Air Sovereignty Alert (ASA) remains a 
NORAD contingency mission requirement, the Department of Defense, as 
the major force provider, is committed to providing resources to ensure 
its successful completion.
    An interim buy of 4.5 generation fighters would not, however, be in 
either DoD or the taxpayer's best interests. For approximately the same 
cost of accomplishing a Service Life Extension Program (SLEP) on the 
current F-16 Block 50/52 fleet of 236 aircraft (extending the aircraft 
from an 8000-hour to a 10,000-hour service life--including Active 
Electronically Scanned Array (AESA) radar upgrade), DoD would only be 
able to procure roughly 40 new F-16s. If the Department chose to 
procure new F-15s, the number would be approximately 20. Moreover, the 
small number of ``new'' legacy aircraft would require a logistical tail 
that would last until around 2040, approximately 20 years past the 
retirement of the current fleet of F-16s. Most importantly, every 
dollar spent on new 4th generation legacy aircraft would most likely be 
taken from the procurement of new 5th generation F-35s.
    If it is determined at some time in the future that programmed 
resources are not available to accomplish the ASA mission, DoD would 
entertain a SLEP of current aircraft as a stop gap measure only. We 
recommend maintaining an accelerated procurement ramp of F-35s to 
continue to modernize our entire fleet and recapitalize our aging 
aircraft.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. TAUSCHER
    Ms. Tauscher. Many reports indicate that the high operational tempo 
during operations in Iraq and Afghanistan has worn-out the equipment at 
a much higher rate than expected and will require a period of re-set to 
``return to standard.'' Concurrently, this same high operational tempo 
combined with frequent deployments has placed similar strains on our 
military personnel. I have long-held my belief that the most valuable 
asset and true key to our military successes have been and always be 
the men and women who volunteer to serve this nation. Furthermore, I 
would also include the families that support them. In 2007, I 
introduced H.R. 3159 to establish the minimum dwell time between 
deployments. As you stated in Foreign Affairs magazine, ``U.S.' ability 
to deal with future threats rests on its performance in the ongoing 
conflicts of today.'' Taking care of our service men and women is the 
only viable way to do both, to provide the most capable force that is 
trained, rested, and focused on the current mission while preparing for 
future missions. I intend to re-introduce this bill in this session of 
Congress.
    What are your goals for the minimum time between deployments that 
will sustain the current mission while allowing for preparation and 
``re-set'' for future missions?
    Secretary Gates. The Department has established goals that sustain 
the current mission while allowing for force preparation and ``re-
set.'' Although the Department strives to increase stability and 
minimize rotational burdens throughout the Force, the current near term 
planning goal for the Active force is two years at home station for 
every year deployed. The long term planning goal for the active force 
is three years at home for every year deployed. Guard and Reserve 
planning goals are five years demobilized for every year mobilized.
    Ms. Tauscher. Mr. Secretary, as you and Admiral Mullen know, 
President Obama has called for repeal of Don't Ask, Don't Tell, and in 
the last Congress 149 House Members co-sponsored my legislation to do 
just that. I was heartened to see last year that then Senator Obama 
reached out to you and the Chiefs to recognize your role and seek your 
help for successful implementation. I appreciate that the new 
Administration has only been in office seven days, but could you share 
with the Committee what actions you and the Joint Chiefs plan to 
undertake over the next several months to provide the President with 
your best advice and guidance on repeal of Don't Ask Don't Tell?
    Secretary Gates. We will provide our best advice and counsel if 
asked. In the meantime, we will continue to comply with the law as 
written on this issue.
    Ms. Tauscher. Do you feel that the proposed target end-strengths of 
547,400 for the Army and 202,000 for the Marines are large enough?
    Secretary Gates. Grow-the-Force initiatives approved by the 
President's FY10 Budget Request and authorized by Congress fund and 
accelerate increased Active Army and Marine Corps end-strength targets. 
Increased end-strengths will reduce stress on service members and their 
families, while ensuring heightened readiness for a full spectrum of 
military operation.
    Ms. Tauscher. How would you weigh this against the potential 
increase in tension if the U.S. were to pursue the RRW?
    Secretary Gates. If we accept that nuclear weapons are still 
relevant and necessary to ensure our nation's security, a modernization 
program (like RRW) that advances nuclear weapon safety and security, 
ensures long-term sustainability of the stockpile, acknowledges the 
likelihood of not returning to testing, and allows for the possibility 
of stockpile reductions would not likely increase tensions with Russia. 
Russia's continued efforts to design and field new weapons as well as 
maintain a fully functional infrastructure that can manufacture a 
significant number of warheads each year is clear evidence that it 
acknowledges the necessity of sustaining its strategic deterrent force. 
Pursuit of a modernization strategy is necessary to support and advance 
our commitment to achieve a credible deterrent with the lowest possible 
number of nuclear weapons consistent with national security needs.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. In my time on the Homeland Security Committee, I 
spent a great deal of effort on the security of the electric grid from 
cyber attack. In February 2008, the Defense Science Board issued a 
report called ``More Fuel Less Fight,'' where it concluded that DOD 
faces several significant energy challenges, namely that military 
installations are almost completely dependent on a fragile and 
vulnerable electric grid, which places critical military and homeland 
defense missions at risk. Has the DOD begun to implement the 
recommendations of the DSB, and will you provide this Committee with 
details about how you are reducing the risk to critical missions at 
fixed installations from loss of power, particularly by cyber attack?
    Secretary Gates. Renewable and other assured energy sources are 
important means by which the Department can meet its mission assurance 
ends for military operations, particularly in light of our dependence 
on the commercial grid for electricity. In the near term, the 
Department has acquired diesel standby power generators for military 
installations to accommodate mission critical loads necessary to 
sustain military operations. In the long term, to mitigate the 
challenge of a fragile electrical grid, the Department is:

    <bullet>  Reducing its energy demand--military installations have 
reduced their energy consumption by 10 percent since 2003, and the 
Department has reduced its total energy consumption by 6 percent since 
2005;

    <bullet>  Improving its use of renewable energy sources--the 
Department currently receives 12 percent of its electricity from 
renewable energy sources and uses alternative fuels for many of its 
non-tactical ground vehicles. Further, the Department has begun to 
certify its tactical weapon systems for alternative fuel sources, most 
notably, the B-52, B-l and C-17 are certified to fly on a blend of 
synthetically-derived and conventional jet fuel; and

    <bullet>  Improving the security of energy supplied by conducting 
comprehensive mission-assurance vulnerability assessments that include 
energy sector critical infrastructure dependencies.

    The Department is currently assessing the vulnerability of the 
energy distribution system and developing solutions to address this 
challenge. The Department also is co-chairing with the Department of 
Homeland Security and the Department of Energy a Task Force on 
Electrical Grid Vulnerability. This Task Force was chartered by the 
Office of Science and Technology Policy to examine gaps and seams in 
Federal efforts to mitigate grid vulnerability issues. This Task Force 
also is examining both physical and cyber security shortfalls.
    Mr. Langevin. I have long been concerned about the tendency of 
agencies with national and homeland security responsibilities to focus 
exclusively on strengthening their own programs and initiatives, while 
losing sight of the larger strategic goals to which their programs are 
contributing. Secretary Gates, in the article you wrote for Foreign 
Affairs, you state that ``various initiatives are under way that will 
better integrate and coordinate U.S. military efforts with civilian 
agencies as well as engage the expertise of the private sector.'' Could 
you elaborate on these initiatives? I have also proposed creating a 
Quadrennial National Security Review, similar to DoD's Quadrennial 
Defense Review, though at an interagency level. Do you think such an 
effort would help us better coordinate our assets of national power?
    Secretary Gates. From policy-makers in Washington, DC to those 
serving in the field, the interagency process in recent years has 
greatly improved coordination. Based on a December meeting I had with 
former USAID Administrator Henrietta Fore, the Department of State, 
DoD, and USAID have established a civil-military coordination group to 
align our planning, programming, and budgeting more effectively. For 
many of our military-to-military cooperation programs, we coordinate 
with both the relevant Ambassador and with the Secretary of State. 
Often, we not only coordinate but jointly develop our projects. For 
many of these programs, we have sought ``dual key'' authorities, where 
final approval authority resides with both the Secretary of Defense and 
Secretary of State. At our Geographic Combatant Commands, civilian 
officials from the Departments of Homeland Security, Treasury, State, 
and others are helping us shape operations. In the field, Service 
members conducting military operations from such countries as the 
Philippines and Colombia to countries on the Horn of Africa liaise 
daily with U.S. Embassy country teams.
    For whole-of-government approaches to stability and reconstruction 
operations associated with imminent, ongoing, and post-conflict 
environments, DoD also continues to support the Department of State's 
efforts developed under NSPD-44 and now authorized under the National 
Defense Authorization Act for 2009, Title XVI. The NSC-approved 
Interagency Management System and the Civilian Stabilization 
Initiative, which includes the multi-agency Civilian Response Corps, 
provides the tools to improve civilian-military integration in these 
types of environments.
    The Department of Defense also frequently consults with outside 
experts who contribute insights and experiences from the private 
sector, academia, and elsewhere. The independent insights from foreign 
area experts in academia are particularly valuable, which is why the 
Department launched the Minerva Initiative last year to cultivate and 
solicit academic social science expertise in areas that will inform 
policymaking. Additionally, the Joint Staff and Military Departments 
have brought onto their staffs cultural anthropologists and 
sociologists.
    We are looking very closely at additional ways to integrate 
interagency strategy development and planning. The President has made 
improving the use of all elements of national power a priority, and may 
consider chartering a review along the lines of a ``Quadrennial 
National Security Review,'' conducted by departments and agencies 
across the U.S. Government, as part of these efforts. To be effective, 
such reviews will also require aligning budget and planning processes 
across U.S. Government departments and agencies, and receptivity in 
Congress to working across traditional jurisdictions to enact 
authorizations and appropriations along the lines of these new models.
                                 ______
                                 
              QUESTIONS SUBMITTED BY MRS. MCMORRIS RODGERS
    Mrs. McMorris Rodgers. In Secretary Gates' opening remarks, he 
mentions a combined pay and personnel system for Active Duty and 
Reserves. Can you clarify what is meant by combined pay and personnel 
system for Active Duty and Reserves? What is DOD doing to implement 
that system?
    Secretary Gates. The Department of Defense (DoD) is modernizing its 
business capabilities in support of the management of military 
personnel and pay, including integration of the Active, Reserve and 
National Guard personnel and pay, under the Defense Integrated Military 
Human Resources System (DIMHRS).
    Based on an assessment of the program and the challenges of such a 
complex effort, the Deputy Secretary of Defense directed a revised 
acquisition approach in January that leverages the extensive effort to 
date and provides flexibility for the military Departments implementing 
the solution. The Business Transformation Agency will complete the 
development of the DIMHRS ``core'' enterprise requirements, which will 
be primarily restricted to those common data and process elements that 
are required to achieve timely and accurate military pay.
    Upon completion, the ``core'' will be transitioned to the 
individual military departments. The Army and Air Force will then 
build-out and deploy their own required personnel and pay capabilities 
using this ``core'' to the maximum extent practical. The Navy will 
assess the DIMHRS ``core'' as part of the Analysis of Alternatives 
required for their integrated pay/personnel solution. Concurrently, an 
enterprise-level information warehouse will be established under the 
leadership of the Deputy Chief Management Officer to support the 
information needs of the Office of the Secretary of Defense (OSD) and 
the Combatant Commands. This course of action will satisfy the OSD and 
Combatant Command information requirements and provide the Services 
with the flexibility to implement the solution consistent with their 
needs. In accordance with 10 USC 2445c, the solution is under review by 
the Under Secretary of Defense (Acquisition, Technology and Logistics) 
and pending certification.
    Mrs. McMorris Rodgers. The Obama Administration has come out and 
said that Energy is going to play an important part of our National 
Security. I see this could be played out in many different ways. What 
role do you see the military playing in this policy and are we prepared 
for it?
    Secretary Gates. Energy is a strategic resource that has 
significant security, economic, geo-strategic and environmental 
implications for the Nation and important operational implications for 
the Department. Like the Nation, DoD must focus on reducing demand 
through culture change and increased efficiency. The intensity of day-
to-day fuel demand in Iraq and Afghanistan requires large logistics 
convoys along vulnerable lines of communication that are prime targets 
for insurgent forces. Protecting these convoys imposes a high burden on 
our combat forces by diverting combat units from direct engagement to 
force protection missions. DoD is actively seeking ways to reduce 
demand at installations, both fixed and tactical, and for weapons 
systems and are increasing assured alternatives. We have initiated 
numerous demonstrations and other projects, with anticipated savings 
from 5 to 25 percent, and technologies that make good business sense, 
both financially and operationally, are being implemented on a wider 
scale. These efforts will improve the Department's energy posture by 
reducing costs and enabling sustained, uninterrupted operations and put 
fewer Service members in harm's way.
    Mrs. McMorris Rodgers. It is no secret that the DOD acquisition 
process is broken and needs to be fixed. Many who have worked in DOD 
acquisitions have seen first hand the broken process. The CEO of FEDEX, 
Fred Smith, has even commented that ``in the private sector, you would 
see a structure that's much more cost-effective rather than trying to 
prevent error. And those end up with having radically different 
results.'' Last year I was surprised when I heard that Boeing did not 
receive the contract for the $35B Air Force tanker contract; however, I 
was more shocked to learn that DOD had not given both Boeing and Airbus 
the same open and transparent guideline to make an appropriate bid.
    What risk are you willing to tolerate in order to alleviate the 
cost to some very expensive weapon systems?
    Secretary Gates. Unlike the private sector, DoD's acquisition 
process must be completely transparent with taxpayer dollars--it must 
maximize competition, include socioeconomic program goals, and strictly 
comply with a myriad of specific statutes, regulations and policies. 
Certainly, this impacts the risks the Department can afford to take 
compared to the commercial acquisition sector. Further, our decisions 
are subject to third-party review in a way that is also not available 
for private, commercial transactions. However, the Department takes 
reasonable risks on our acquisition programs where appropriate. Risk 
assessments and mitigation plans are a fundamental driver of 
acquisition strategies that help to balance risks against program goals 
and cost constraints.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. Also, can we expect President Obama's administration 
will adhere to the principals of the Alliance Transformation agreement 
signed several years ago?
    Secretary Gates. The Alliance Transformation agreement of 2006 is 
essential to strengthening U.S. strategic posture in the Pacific while 
also strengthening the U.S.-Japan Alliance. We remain committed to 
ensuring the agreement is implemented.
    On February 17, 2009, Secretary Clinton and Japan's Foreign 
Minister Nakasone signed the Guam International Agreement. This 
agreement formalized a framework for implementing our realignment on 
Okinawa and Guam that was begun during the previous administration. As 
Secretary Clinton said at the signing, this agreement reflects the 
commitment we have to modernize our military posture in the Pacific. It 
reinforces the core of the U.S.-Japan Alliance--ensuring deterrence and 
defending Japan against attack. It also enshrines our two nations' 
shared contributions in carrying out the realignment of our forces and 
the relocation of Marines from Okinawa to Guam.
    Ms. Bordallo. Will the military realignments in the Pacific, 
especially those on Guam, remain a priority for the Department?
    Secretary Gates. Yes, Global posture changes in the Pacific are a 
strategic investment in the security of the Asia-Pacific region, and 
remain a priority for the United States' long-term defense interests.
    Ms. Bordallo. Mr. Secretary, I would like you to comment on reports 
about the transfer of Iraqi refugees to U.S. bases across the globe for 
expedited immigration processing. A Center for American Progress report 
released in early January 2009 recommends that Andersen Air Force Base, 
among several other locations, be used as a staging point for Iraqi 
refugees seeking asylum in the U.S. The report cites previous refugee 
assistance that Andersen played in the past including the Vietnamese 
refugees and Kurds in Operation Pacific Haven in 1996 through 1997. 
Although Guam has been able to assist in the past I am concerned about 
the impact that this proposal, if implemented, could have to the 
security operations at Andersen as well as the burden on the community.
    Can you comment as to whether there are plans by the Department to 
use Guam as a processing center for Iraqis seeking asylum in the U.S.?
    Secretary Gates. The Department of Defense has no plans to use 
Andersen Air Force Base, Guam, or other DoD facilities, to provide safe 
havens or processing centers for Iraqis seeking asylum in the U.S. 
Moreover, DoD has no authority to participate in the resettlement of 
Iraqis. Authority for admitting Iraqis is vested entirely in the 
Department of State (DoS) and the Department of Homeland Security 
(DHS).
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. MURPHY
    Mr. Murphy. Given that 24 nations, including a dozen of our allies 
fighting alongside us in Afghanistan and nine in Iraq, allow gays and 
lesbians to serve openly in their armed forces is there any evidence to 
suggest that lifting our ban on gays and lesbians serving openly in the 
military would have a detrimental effect on morale and/or unit 
cohesion?
    Secretary Gates. We will continue to comply with the law as written 
on this issue.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. HUNTER
    Mr. Hunter. As you know, Task Force ODIN was first deployed in Iraq 
in October 2006 and was designed to aggressively attack those setting 
IED's. The success of Task Force ODIN has been outstanding with over 
3,000 ``targets'' either captured or killed. I am concerned that as we 
move troops over to the theater in Afghanistan that a ``Task Force 
ODIN'' be replicated as quickly as possible. Already we are hearing 
reports that a majority of operations in Afghanistan are conducted 
without ISR support and casualty figures are rising--in fact deaths 
from IED's have jumped from 75 in 2007 to 161 in 2008. In light of this 
Mr. Secretary, how quickly will we replicate the capabilities and 
lessons learned from Task Force ODIN to the operations in Afghanistan? 
Are assets being moved currently to Afghanistan? Are you encountering 
any unique problems in Afghanistan that are hindering the establishment 
of ODIN-like capabilities? Finally, I understand that Liberty C-12's 
are being moved into Iraq and I am wondering why these assets would not 
be sent to Afghanistan?
    Secretary Gates. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MS. SHEA-PORTER
    Ms. Shea-Porter. Shortly before the end of his term, President Bush 
issued National Security Presidential Directive-66 pertaining to Arctic 
Region Policy. This directive takes into account several developments, 
among which are ``the effects of climate change and increasing human 
activity in the Arctic region.'' It's conceivable that this NSPD could 
be changed as the new administration reviews it, but let's assume for 
the purpose of this question that the policy stands. What actions will 
the Department of Defense take to implement NSPD-66 and to respond to 
the projected effects of climate change in the Arctic region? More 
broadly, to what extent is the Department of Defense considering the 
possible national security implications of climate change, in general?
    Secretary Gates. The United States has broad and fundamental 
security interests in the Arctic region. NSPD-66 provides that it is 
the policy of the United States to meet national security and homeland 
security needs relevant to the Arctic region. It directs the 
Secretaries of State, Defense, and Homeland Security, in coordination 
with heads of other relevant executive departments, to develop greater 
capabilities and capacity, as necessary, to protect United States air, 
land, and sea borders.
    Increased Arctic access stemming from the effects of climate 
change, coupled with the promise of resource discovery, portends a 
greater frequency of human activity throughout the region. The 
Department will have to address the consequences of increased human 
activity, and the security and environmental challenges it will bring, 
including increased competition for use of Arctic resources and sea 
lanes. The National Defense Authorization Act for FY 2008 requires 
discussion of climate change in the Quadrennial Defense Review (QDR). 
The Department is beginning the work of the QDR.
    The Department seeks to promote a secure, stable Arctic region 
characterized by international cooperation and responsible resource 
exploration. The Department views the U.N. Convention on the Law of the 
Sea as the framework for this cooperation, and believes it is essential 
for addressing and managing the effects of climate change in the 
Arctic. The Department strongly supports U.S. accession to the 
Convention.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. What must we do as a country to rebuild our strategic 
communication capabilities?
    Secretary Gates. Effective strategic communication requires whole 
of government alignment of policies and actions as well as 
understanding of the audiences we seek to inform and influence. The 
Department of State is the U.S. Government (USG) lead for public 
diplomacy and strategic communication. The Department of Defense works 
closely with State and other Departments and Agencies to ensure DoD 
roles, responsibilities, and contributions support a whole-of-
government approach to strategic communications. Within DoD, we 
continue to apply lessons learned from ongoing military campaigns to 
our departmental strategic communication efforts and in our support of 
broader U.S. strategic communication planning efforts.
    In order to conduct successful strategic communications, the U.S. 
must ensure that this function is a central element of whole of 
government planning to address security challenges. In addition, the 
USG must continue to develop the necessary skills and expertise. 
Understanding foreign audiences requires regional, cultural, and 
language knowledge, and an understanding of which types of media will 
communicate most effectively with each audience. These capabilities 
exist in varying degrees across the USG, and increased transparency 
will allow the USG as a whole to better leverage these capabilities in 
a unified approach. Finally, helping to build the capability of our 
international partners is vital as they often can build and use 
communications networks to reach audiences in ways the U.S. cannot.
    Mr. Loebsack. Where should the central point of coordination, 
responsibility, and oversight lie?
    Secretary Gates. The State Department should retain the overall 
lead in setting our foreign policy and foreign assistance priorities 
broadly, including security assistance. DoD retains critical roles in 
informing, developing, and implementing agreed upon programs in an 
effective and timely manner; in general, however, DoD's role should be 
to support, not lead, in the exercise of ``soft power.'' The Department 
does play a vital role in helping to promote--through the full gamut of 
planning efforts, exchanges, exercises, operations, and bilateral 
defense relationships--the conditions that enable the non-military 
elements of national power to be applied with maximum beneficial 
effect. Strong and close working relationships among DoD, the State 
Department, and other U.S. departments and agencies are critical.
    Mr. Loebsack. How can such efforts be leveraged in Afghanistan, 
Iraq, and elsewhere?
    Secretary Gates. One of the most important lessons is that 21st 
century conflicts, including those in Iraq and Afghanistan, will occur 
along the entire spectrum of conflict where traditional and irregular 
warfare are blurring and merging into new ``hybrid'' forms of conflict. 
Furthermore, through recent experiences with disaster response, 
humanitarian assistance and stability operations, the Department has 
learned the importance of successful integration of civilian and 
military organizations in all phases of an operation, from planning 
through execution. The military must plan and train with their civilian 
counterparts and be prepared to operate effectively in all phases of 
conflict and in operations in which DoD is supporting another 
department or agency. The Department has also learned that the military 
cannot be prepared only for combat; it must be prepared to undertake 
critical non-military tasks when civilian agencies cannot operate 
effectively, due either to the security environment or to the lack of 
capacity. Indeed, the need for greater capabilities and capacity in 
civilian agencies has been a recurring lesson for the entire U.S. 
Government.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. Is the topic of an interim buy of F-16s being 
considered to help fill the gap? If not, why not?
    Secretary Gates. The Department's plan is to replace the aging F-16 
legacy fleet with the F-35 Joint Strike Fighter. As of the FY 2009 
President's Budget, Low Rate Initial Production (LRIP) deliveries of 
the Air Force's Conventional Take-off and Landing (CTOL) variant are 
planned to begin in 2010, with Initial Operational Capability (IOC) 
planned for 2013. The Department will continue to monitor F-35 
development and production progress, and we will adjust our current 
plans, as necessary, to meet overall tactical aircraft force structure 
requirements.
    Ms. Giffords. Will the Department support efforts to re-engine the 
A-10 fleet?
    Secretary Gates. There is a validated requirement for a performance 
upgrade on the A-10's TF34-100A engines, but not to re-engine the A-10. 
Beginning in 2008, numerous sustainment issues have arisen that have 
caused the Air Force to consider the possibility of re-engining the A-
10. However, this effort is still in the very early stages of 
investigation. The risks and benefits of A-10 engine performance 
upgrade and A-10 re-engining will be weighed against other priorities 
in Department budget deliberations.
    Ms. Giffords. While it is clear that the JSF is one eventual 
solution, it remains years away from being fielded. With the ongoing 
engine and software issues, should we expect that program to continuing 
sliding to the right?
    Secretary Gates. The Joint Strike Fighter (JSF) will replace legacy 
strike fighter aircraft for the Air Force, Navy, and Marine Corps and 
provide the bulk of Tactical Aircraft force structure for the 
Department, as well as many of our allied air forces. The Department 
continues to monitor the development, test, and production phases of 
the JSF and anticipates that most, if not all, of the remaining test 
aircraft will be delivered in 2009. The first 2 Low Rate Initial 
Production (LRIP) lot one aircraft, as well as 10 of the 12 LRIP lot 
two aircraft, will be delivered in 2010. Negotiations for LRIP lot 
three are underway, for aircraft that will begin to be delivered in 
2011 (14 U.S. and 3 international aircraft). The Department 
acknowledges that there is schedule risk in the JSF program but 
believes that the current approved schedule is achievable. The 
Department does not anticipate delays but will continue working with 
the contractor to actively mitigate risk should unanticipated schedule 
delays occur.
    The JSF program has experienced some engine issues as the 
propulsion phase of the program continues to mature. However, the 
engine contractor identified the root causes of the engine issues and 
has implemented and tested those changes required to correct the 
issues. More than half (12 million lines) of the total program software 
lines of code are complete, and recent quality is showing consistently 
positive results. Later software blocks are smaller in size than their 
predecessors and build upon previously delivered capability. The 
program will continue to monitor software as a risk area as we 
transition from the labs to our flying test bed and flight test 
aircraft. The Department is fully committed to the success of the JSF 
program, and will continue to review program progress as it nears 
completion of development, begins testing in earnest, and continues 
with production of this important 5th generation strike fighter 
aircraft.
    Ms. Giffords. When can Congress expect to see the Office of the 
Director of Operational Energy Plans and Programs established?
    Secretary Gates. The Department is undertaking an analysis of 
options for the most effective and efficient organizational placement 
of the Office of the Director of Operational Energy Plans and Programs 
within the Office of the Secretary of Defense, aligned to the statutory 
provision. Selection of the preferred option, identification of initial 
manpower resources, and establishment of the Office should be completed 
during the 3rd quarter of Fiscal Year 2009. I anticipate naming a 
Deputy Director to oversee the Office and its functions until such time 
as the first Director is confirmed by the Senate and appointed by the 
President. The Deputy Director will lead the initial effort to prepare 
and coordinate the initial Annual Report on Operational Energy 
Management and Implementation of Operational Energy Strategy, as 
required under section 331 of the National Defense Authorization Act 
for Fiscal Year 2009.
    Ms. Giffords. What role do you see energy policy playing within the 
Department of Defense in the new Administration?
    Secretary Gates. Energy will continue to be a priority and may 
actually grow in importance. This is likely true, regardless of the 
price of fuel, since it impacts our ability to operate. For forward 
deployed locations, decreasing fuel demand reduces the size and 
frequency of convoys. In platforms, greater fuel efficiency provides 
increasing endurance, reduces vulnerability, and enables combat forces 
to perform other duties. We will continue to identify ways to improve 
our energy posture and expand on many of the technology demonstrations 
currently underway.
    Ms. Giffords. When can we expect to see repairs completed on the A-
10 fleet and when should my A-10 squadrons expect to be flying again?
    Secretary Gates. A-10 crack inspections and repairs are currently 
projected to be completed by June 30, 2009. As of March 3, 2009, 218 
out of 356 aircraft have been returned to flight. Davis-Monthan Air 
Force Base has 61 aircraft available and flying, or approximately 75 
percent of its 83 assigned aircraft.
                                 ______
                                 
                     QUESTIONS SUBMITTED BY MR. NYE
    Mr. Nye. When active duty soldiers are discharged, the transition 
from a DoD based system to a VA based system can take months, and in 
some cases, years. Section SEC. 1618 of the FY2008 Defense 
Authorization required ``planning for the seamless transition of 
[Member of the Armed Forces] from care through the Department of 
Defense to care through the Department of Veterans Affairs.'' In light 
of recent reports of increased suicide by members of the armed services 
and the pervasive issue of traumatic brain injury, what steps are you 
taking to ensure a more seamless transition for our heroic men and 
women?
    Secretary Gates. DoD has implemented a number of capabilities to 
assist Service members and their families as they transition from one 
health care system to another. These capabilities fall into three basic 
support categories: coaching and case management, call center, and 
online services. Examples of each follow:

    Coaching/Case Management: The Transitional Support Program (TSP) 
was developed in response to the DoD Mental Health Task Force 
recommendation to ``Maintain Continuity of Care across Transitions.'' 
The TSP will bridge potential gaps in psychological health services 
that can occur during periods of transfer that are typical to Service 
members and will use an established behavioral health network with 
national networking capabilities and scope. The facilitators who will 
work with our Service members will have the knowledge and skill sets of 
licensed masters or doctoral level mental health clinicians. 
Transitional Support Facilitators (TSFs) will provide a readily 
accessible (24/7) and knowledgeable specialist for Service members who 
are seeking expert advice about mental health specialties available, 
techniques, and modalities that are typically used in therapy, and 
direction in obtaining assistance and resources in their immediate 
area. They will offer specialty-coaching services, provide support and 
education, and otherwise encourage the use of behavioral health 
services to optimize psychological health. A TSF who is assigned to a 
Service member will remain so until the transfer to the gaining 
provider is completed.

    Call Center: The Defense Centers of Excellence (DCoE) for 
Psychological Health and Traumatic Brain Injury has opened a 24-hour 
outreach center to provide information and referrals to military 
Service members, veterans, their families, and others with questions 
about psychological health and traumatic brain injury. The new center 
can be contacted around the clock, 365 days a year, by phone at 866-
966-1020 and by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="beccdbcdd1cbccdddbcdfedaddd1dbd1cbcaccdbdfddd690d1ccd990">[email&#160;protected]</a> Telephone calls 
are toll-free. The outreach center can assist with everything from 
routine requests for information about psychological health and 
traumatic brain injury, to questions about symptoms a caller is having, 
to helping a caller find appropriate health care resources. The 
outreach center is staffed by health consultants and nurses, many of 
whom have Masters Degrees.

    Online Services: ``After Deployment'' is a Web-based service, 
www.afterdeployment.org, designed to address the psychological concerns 
of Service members who may experience adjustment problems but are 
uncomfortable with immediately seeking in-person consultations. Using 
simple and private interaction, including self-assessments with 
feedback and recommendations, After Deployment addresses the post-
deployment psychological health issues of Service members and their 
families. A dozen online programs offer support for concerns including 
depression and stress, relationships, difficulties at work, anger 
management, sleep problems, alcohol and drugs, and more. Other 
specialized programs include spirituality, living with physical 
injuries, and maintaining balance among competing interests in daily 
life. After Deployment also provides a program for helping children 
deal with deployment and separation. After Deployment is designed for 
Active Duty Service members, veterans, and their families, but is 
available to anyone and may be accessed anonymously. Members of 
National Guard and Reserve units and their families may find After 
Deployment particularly useful because many of these individuals live 
in medically underserved areas where it may be difficult to find mental 
health providers familiar with military-related adjustment concerns.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. HEINRICH
    Mr. Heinrich. Secretary Gates--Over 50% of Sandia National 
Laboratory's work portfolio is non-nuclear focused, and it remains a 
leader in providing innovative science-based systems and engineering 
solutions to our nation's most challenging national security problems 
largely because of its status as a ``Government-Owned, Contractor-
Operated (GOCO)'' laboratory.
    In your opinion, how would the aforementioned transfer impact 
GOCOs, such as Sandia National Laboratory and Los Alamos National 
Laboratory, whose policies and management differ from DoD and have a 
diversified portfolio including alternative energy, nanotechnology, and 
other STEM programs?
    Secretary Gates. The DOE National Laboratories are a critical and 
highly valuable national resource. The Lab's capability is built on 
world-class expertise and facilities which the Department of Defense 
has long made use to carry out its wide set of defense missions. More 
broadly, the National Laboratories have supported national missions in 
non-defense research as well, including renewable energy and energy 
efficiency, fossil energy, basic science, climate modeling, and 
environmental, all areas where ``big science'' plays a fundamental and 
enabling role. The DOE laboratories interface with the Department of 
Energy's program offices with a federal staff maintaining expertise in 
DOE's mission elements and laboratory programs and capabilities. Should 
this transfer occur, we would of course take precaution that the 
research environment at the laboratories and the organizational 
connections in the federal government are protected.
    Mr. Heinrich. Secretary Gates--I am concerned about possible 
funding cuts to Operationally Responsive Space (ORS) in the FY10 budget 
submission. Can you please explain the relationship between ORS and 
your administration's policies to support it?
    Secretary Gates. It is the Department's goal to create a future in 
which the acquisition and operation of space systems is more responsive 
and less costly. The Department's investment in ORS will provide key 
enablers, build the industrial base, establish standards, and test new 
concepts of operations to more effectively meet the needs of the joint 
warfighter.
    Mr. Heinrich. Secretary Gates--Recently the DoD and DoE were 
instructed to assess the costs and benefits of transferring budget and 
management of NNSA, or its components, to the DoD. If NNSA's budget and 
management were transferred to the DoD, would the nuclear weapon 
stockpile remain under civilian control, and can you explain your ideas 
for maintaining this institutional separation of our nuclear stockpile?
    Secretary Gates. Both the Department of Defense and Department of 
Energy are awaiting further guidance on this assessment from the Office 
of Management and Budget; therefore, it is premature to discuss any 
potential end states prior to completion of this assessment.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
